   EFFECTIVENESS OF THE
OFFICE FOR VICTIMS OF CRIME
 TRIBAL VICTIM ASSISTANCE
         PROGRAM
      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

         Audit Report 06-08
           February 2006
                  AUDIT OF THE EFFECTIVENESS OF
                 THE OFFICE FOR VICTIMS OF CRIME
                TRIBAL VICTIM ASSISTANCE PROGRAM

                              EXECUTIVE SUMMARY


      According to the 2000 Census, 4.1 million people, 1 or 1.5 percent of
the total population, identified themselves as American Indians or Alaska
Natives (Native Americans). 2 Despite the relatively small Native American
population, a 2001 study conducted by the Bureau of Justice Statistics (BJS)
indicated that Native Americans are more likely to be victims of rape or
sexual assault, aggravated assault, and simple assault than people of any
other race in the United States. 3

       In 1988, the Office for Victims of Crime (OVC) created the Victim
Assistance in Indian Country (VAIC) Discretionary Grant program to
establish, expand, and improve victim assistance services in Native
American communities governed by federal criminal jurisdiction. The VAIC
program was designed to address the lack of victim assistance programs and
bridge the gap between criminal justice agencies and service providers.
Under the VAIC program, during Fiscal Years (FYs) 1999 through 2002, the
OVC provided funding totaling $5,466,995 directly to 40 Native American
communities to help them establish reservation-based victim assistance
programs. In FY 2003, the OVC expanded the VAIC program to all federally
recognized tribes, regardless of criminal jurisdiction, and renamed it the
Tribal Victim Assistance (TVA) program. During FYs 2003 and 2004, the
OVC has awarded $4,976,524 under the TVA program to 24 Native American
communities throughout the United States.

       Under the OVC tribal victim assistance program, applicants are
required to plan and implement a 3-year program to improve the ability of
Native American communities in providing direct services to crime victims. 4
Tribal grantees are encouraged to demonstrate strategies that include

       1
        This statistic includes 2.5 million individuals in the United States who identify
themselves as Native American, and another 1.6 million who identify themselves as part
Native American.
       2
         Throughout this report, the term “Native Americans” is used to indicate American
Indians and Alaska Natives.
       3
           BJS Special Report, Violent Victimization and Race, 1993-98, March 2001.
       4
          Throughout this report, the phrase “OVC tribal victim assistance program” is used
to refer to both the former VAIC and current TVA programs.
collaboration with appropriate local and federal agencies involved in assisting
victims. Specifically, collaboration with the following agencies is deemed
essential under the OVC tribal victim assistance program: (1) the U.S.
Attorneys’ Offices (USAO); (2) the Federal Bureau of Investigation (FBI);
(3) state, local, and tribal criminal justice agencies; (4) Indian Health
Services; (5) child protective services; and (6) other appropriate tribal and
non-tribal agencies.


Audit Objective

       The Department of Justice (DOJ) Office of the Inspector General (OIG)
previously conducted an audit on the Administration of Department of
Justice Grants Awarded to Native American and Alaska Native Tribal
Governments, Report No. 05-18, March 2005. The prior audit found
significant issues with the adequacy of grant monitoring, which is an
essential management tool that ensures grant programs are implemented,
objectives are achieved, and tribal grantees have expended funds properly.
Additionally, the report noted that the granting agencies did not ensure that
tribal grantees submitted the necessary information to assess grant
implementation or to achieve the grant program objectives. Further, there
was no consistency in the information provided in the required progress
reports that were submitted.

      As a result, we initiated the current audit as a follow-up to evaluate
the effectiveness of the OVC tribal victim assistance grant program. The
objective of our audit was to obtain grant performance information directly
from tribal grantees and to evaluate whether the grants were fully
implemented and the program objectives were achieved.


Summary of Findings and Recommendations

       Based on our review, we found a wide range in the effectiveness of the
four individual grantee tribal victim assistance programs. This range
resulted, in part, because the OVC did not incorporate adequate strategic
planning into its victim assistance program, which was necessary to
implement effective performance-based management.


Office for Victims of Crime

     We found that the OVC did not establish any long-term or annual
program goals for its tribal victim assistance program by which program


                                     - ii –
effectiveness could be measured. In addition, the OVC was not required to
provide performance information with its budget requests for the tribal
victim assistance program; as a result, program funding decisions were not
tied to program effectiveness.

       We also found that the OVC did not conduct any evaluations to
determine the effectiveness of its tribal victim assistance program.
However, in FY 2001 the OVC did provide approximately $25,000 in funding
to the National Institute of Justice (NIJ) to conduct assessments of four
tribal victim assistance grant recipients to determine whether or not the
tribal grantee programs could be evaluated. The OVC also provided the NIJ
with an additional $425,200 to evaluate the effectiveness of two 2003 TVA
grantees with awards totaling $197,689. 5 The NIJ awarded a grant to
conduct this evaluation to the American Indian Development Associates, Inc.
in September 2005. The evaluation will take place over a 2-year period and
should be completed by December 2007.

      We discussed our concerns with OVC and NIJ officials about spending
$425,200 to evaluate two individual grant programs totaling less than
$200,000. The officials stated that although the evaluations cannot be used
to determine the effectiveness of the OVC tribal victim assistance program
as a whole, they expect that the findings will produce lessons learned for
similar tribal programs.

       We also found that OVC program officials and tribal grantees were not
held accountable for performance results. There was no guidance from the
OVC on collecting performance information, nor was there consistency or
comparability among tribal grantees in how the data was reported.
Performance information also was not used to evaluate the effectiveness of
the OVC tribal victim assistance program as a whole or the effectiveness of
individual grantee tribal victim assistance programs. As a result, we were
unable to compile information from tribal grantee progress reports to
generate statistical information on the program results for the OVC tribal
victim assistance program as a whole. Instead, we attempted to evaluate
the effectiveness of individual grantee tribal victim assistance programs, as
discussed in the following sections of this report.




       5
         According to OVC officials the evaluations will cover the entire 3-year award
period, which would include grant funds totaling $554,531, rather than the $197,689 for
FY 2003 that was specifically identified in the grant solicitation.



                                          - iii –
      We selected four tribal grantees who received victim assistance
funding and for which financial audits were conducted previously as part of
our prior audit. 6 Those four tribal grantees were:

       •   Sault Ste. Marie Tribe of Chippewa Indians, Sault Ste. Marie, Michigan
       •   Oglala Sioux Tribe, Pine Ridge, South Dakota
       •   Mississippi Band of Choctaw Indians, Philadelphia, Mississippi
       •   Lummi Indian Nation, Bellingham, Washington




Sault Ste. Marie Tribe of Chippewa Indians

      The Sault Ste. Marie Tribe effectively implemented a comprehensive
victim assistance program that bridged the gap between the criminal justice
system and victims. We found that:

   •   the tribe generally achieved the objectives of its tribal victim
       assistance grant, which were consistent with the overall goal of the
       OVC tribal victim assistance program;

   •   the number of victims served increased by 30 percent during the first
       year of the grant (1999) and by 86 percent over the life of the entire
       grant (1999 through 2002);

   •   the program was considered effective by victims, and by tribal and
       federal collaborating agencies in meeting both short- and long-term
       victim needs; and

   •   the program was sustained after the OVC grant funding expired.


Oglala Sioux Tribe

      The Oglala Sioux Tribe did not effectively implement a comprehensive
victim assistance program that bridged the gap between the criminal justice
system and victims. We found that:

   •   the tribe did not accurately report performance information in its
       progress reports;


       6
         See Appendix III for a summary of the financial audits previously conducted for
each of the four grantees selected for this audit.



                                           - iv –
  •   the program did not demonstrate an increase in the number of victims
      served during the period reviewed (2001 through 2004);

  •   the program was never fully implemented due to frequent changes in
      program management;

  •   the program was not considered effective by tribal collaborating
      agencies; and

  •   the tribe did not establish a plan to sustain the program after the OVC
      grant funding expired.


Mississippi Band of Choctaw Indians

      The Mississippi Band of Choctaw Indians did not effectively implement
a comprehensive victim assistance program that bridged the gap between
the criminal justice system and victims. We found that:

  •   the tribe only partially achieved the grant objectives outlined for its
      victim assistance grant;

  •   the tribe did not include all required performance data in its progress
      reports, and did not accurately report the performance information
      that was included;

  •   the program focused solely on victims of non-major domestic crimes,
      of which the majority of victims contacted declined services;

  •   the tribe did not maintain data on the number of victims served;
      instead it reported on the number of police reports reviewed, which
      does not provide an adequate basis for measuring effectiveness;

  •   the number of police reports reviewed decreased by 4 percent from
      2000 to 2004;

  •   the program was generally considered effective in meeting the specific
      needs of victims of non-major domestic crimes by the victims who
      requested services and the tribal collaborating agencies; however, the
      program was considered to be limited; and

  •   the tribe did not establish a plan to sustain its victim assistance
      program when the victim assistance grant funding expired.



                                      -v–
Lummi Indian Nation

      The Lummi Indian Nation effectively implemented a comprehensive
victim assistance program that bridged the gap between the criminal justice
system and victims. We found that:

  •   the tribe generally achieved its tribal victim assistance grant
      objectives, which were consistent with the overall goal of the OVC
      tribal victim assistance program;

  •   the tribe accurately reported performance information in its progress
      reports;

  •   the number of victims served increased by 51 percent during the first
      year of the grant program (1999) and by 716 percent over the life of
      the entire program (1999 through 2004);

  •   the program was considered effective by the victims, and by tribal and
      federal collaborating agencies in meeting both short- and long-term
      victim needs; and

  •   the tribe did not establish a plan to sustain its victim assistance
      program when the victim assistance grant funding expired.


Overall Summary and Conclusion

       Based on our review, we found a wide range in the effectiveness of the
four individual grantee tribal victim assistance programs. Specifically, we
found that the Sault Ste. Marie Tribe and the Lummi Indian Nation
effectively implemented comprehensive victim assistance programs that
bridged the gap between the criminal justice system and victims.
Conversely, the Oglala Sioux Tribe and the Mississippi Band of Choctaw
Indians did not effectively implement comprehensive victim assistance
programs, as shown in Table 1.




                                     - vi –
TABLE 1. ANALYSIS OF EFFECTIVENESS MEASURES
                                                               MISSISSIPPI       LUMMI
                               SAULT STE.          OGLALA       BAND OF          INDIAN
                               MARIE TRIBE       SIOUX TRIBE    CHOCTAW          NATION
 • Achieved grant
                                    Yes                Yes       Partially          Yes
   objectives
 • Services available to
                                    Yes                Yes          No              Yes
   all victims of crime
 • Accurately reported
                                    No                 No           No              Yes
   performance measures
 • Increased the number
                                    Yes                No           No              Yes
   of victims served 7
 • Considered effective by
                                    Yes                Yes          Yes             Yes
   victims
 • Considered effective by
   tribal collaborating             Yes                No        Partially          Yes
   agencies
 • Considered effective by
   federal collaborating            Yes                Yes         N/A 8            Yes
   agencies
 • Established a plan to
                                    Yes                No           No              No
   sustain the program
 OVERALL PROGRAM                                    NOT           NOT
                                 EFFECTIVE                                      EFFECTIVE
 ASSESSMENT                                       EFFECTIVE     EFFECTIVE


       Generally, we found that the tribes who implemented a successful
tribal victim assistance program effectively coordinated with tribal, state,
and federal criminal justice agencies and social service providers.
Additionally, these programs provided services to tribal victims of all crimes,
rather than focusing on a specific type of crime. Tribes that did not
implement a successful tribal victim assistance program: (1) did not have
consistent program leadership; (2) did not coordinate effectively with tribal,
state, and federal criminal justice agencies and social service providers; and
(3) focused on victims of specific crimes rather than providing services to all
victims of crime.




       7
         This statistic does not include an evaluation of the total number of crimes reported
during the period.
       8
         The FBI and USAO were unable to provide feedback on the tribe’s victim assistance
program because these agencies are only responsible for major crimes committed on tribal
lands, while the tribe’s program focuses on victims of non-major domestic crimes.


                                             - vii –
      Our audit identified several concerns that we consider impairments to
the effectiveness of the OVC tribal victim assistance program as a whole, as
well as victim assistance programs implemented by individual tribal
grantees. Specifically, we found that:

  •   the OVC tribal victim assistance program structure and design did not
      incorporate any strategic planning, which was essential for
      management to adequately evaluate program effectiveness,

  •   the OVC did not use performance information reported by tribal
      grantees to manage and improve performance of the tribal victim
      assistance program, and

  •   the OVC could not demonstrate program results because required
      progress reports were not always submitted and tribal grantees did not
      include all required performance measures in their progress reports.

      As a result, we made seven recommendations in this report that focus
on specific steps the OVC should take to incorporate adequate strategic
planning into its tribal victim assistance program. Specifically, our
recommendations seek to ensure that:

  •   long-term and annual performance goals are established to measure
      program results and resource allocation decisions reflect program
      effectiveness;

  •   progress reports contain all required performance measures and
      performance data is comparable among tribal grantees; and

  •   performance measure information reported by tribal grantees is used
      to report on the effectiveness of the OVC tribal victim assistance
      program as a whole, and to evaluate the effectiveness of individual
      grantee tribal victim assistance programs.




                                   - viii –
                    AUDIT OF THE EFFECTIVENESS OF
                   THE OFFICE FOR VICTIMS OF CRIME
                  TRIBAL VICTIM ASSISTANCE PROGRAM

                                  TABLE OF CONTENTS

INTRODUCTION .................................................................................. 1

  Office for Victims of Crime ................................................................. 2
       Tribal Victim Assistance Programs .................................................... 3
       Allowable Uses of Victim Assistance Funding ...................................... 4
       Collaboration................................................................................. 5
       Performance Measures Under the Victim Assistance Programs.............. 6
  Prior Reviews................................................................................... 6
  Audit Objective ................................................................................ 7
FINDINGS AND RECOMMENDATIONS ................................................... 10

  I.     OFFICE FOR VICTIMS OF CRIME.................................................. 10
       Program Purpose ......................................................................... 10
       Program Design........................................................................... 11
       Strategic Planning........................................................................ 13
       Program Management .................................................................. 16
       Program Results .......................................................................... 17
       Conclusion .................................................................................. 18
       Recommendations ....................................................................... 20
  II. SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS......................... 22
       Implementing the Grant Program Objectives ................................... 23
       Reporting Progress Accurately ....................................................... 24
       Statistical Data Supporting Program Performance............................. 25
       Victim Assistance Program Achievements ........................................ 27
       Collaborating with Criminal Justice Agencies and Service Providers ..... 29
       Sustaining the Victim Assistance Program ....................................... 31
       Conclusion .................................................................................. 31
  III. OGLALA SIOUX TRIBE ............................................................... 33
       Implementing the Grant Program Objectives ................................... 34
       Reporting Progress Accurately ....................................................... 35
       Statistical Data Supporting Program Performance............................. 36
       Victim Assistance Program Achievements ........................................ 37
       Collaborating with Criminal Justice Agencies and Service Providers ..... 38
    Sustaining the Victim Assistance Program ....................................... 40
    Conclusion .................................................................................. 40
  IV. MISSISSIPPI BAND OF CHOCTAW INDIANS .................................. 42
    Implementing the Grant Program Objectives ................................... 43
    Reporting Progress Accurately ....................................................... 47
    Statistical Data Supporting Program Performance............................. 48
    Victim Assistance Program Achievements ........................................ 49
    Collaborating with Criminal Justice Agencies and Service Providers ..... 50
    Sustaining the Victim Assistance Program ....................................... 52
    Conclusion .................................................................................. 52
  V. LUMMI INDIAN NATION ............................................................. 54
    Implementing the Grant Program Objectives ................................... 55
    Reporting Progress Accurately ....................................................... 57
    Statistical Data Supporting Program Performance............................. 58
    Victim Assistance Program Achievements ........................................ 60
    Collaborating with Criminal Justice Agencies and Service Providers ..... 61
    Sustaining the Victim Assistance Program ....................................... 63
    Conclusion .................................................................................. 63
  VI. OVERALL SUMMARY AND CONCLUSION........................................ 65
    Grantee Program Effectiveness ...................................................... 66
    Factors Impacting Grantee Program Effectiveness ............................ 68
       Inadequate Strategic Planning .................................................... 68
       Collecting and Using Performance Information .............................. 69
       Progress Toward Achieving Program Objectives............................. 69
    Conclusion .................................................................................. 70
STATEMENT ON INTERNAL CONTROLS ................................................. 72

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 74

APPENDIX I - CRIMINAL JURISDICTION IN INDIAN COUNTRY.................. 75

APPENDIX II - OBJECTIVES, SCOPE, AND METHODOLOGY ...................... 78

APPENDIX III - SUMMARY OF FINANCIAL AUDITS PREVIOUSLY
  CONDUCTED BY THE OIG OF OJP GRANTS AWARDED TO TRIBAL
  GOVERNMENTS ............................................................................. 83

APPENDIX IV - OVC RESPONSE TO THE DRAFT REPORT.......................... 87
APPENDIX V - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
  CLOSE THE REPORT ....................................................................... 91
                                   INTRODUCTION


      According to the 2000 Census, 4.1 million people, 9 or 1.5 percent of
the total population, identified themselves as American Indians or Alaska
Natives (Native Americans). 10 Despite the relatively small Native American
population, a 2001 study conducted by the Bureau of Justice Statistics (BJS)
indicated that Native Americans are more likely to be victims of rape or
sexual assault, aggravated assault, and simple assault than people of any
other race in the United States. 11 Another study conducted by the BJS
indicated that: 12

   •   Native Americans experienced per capita rates of violence that are
       more than twice those of the United States’ resident population.

   •   On average, Native Americans experienced an estimated 1 violent
       crime for every 10 residents age 12 or older.

   •   The violent crime rate in every age group below 35 was significantly
       higher for Native Americans than for all persons.

   •   Among Native Americans age 25 to 34, the rates of violent crime
       victimization were more than 2.5 times the rates for all persons the
       same age.

   •   Rates of violent victimization for both males and females were higher
       for Native Americans than for all other races included in the study.

   •   The rate of violent victimization among Native American women was
       more than double that among all women.

       Additionally, a study funded by the Office for Victims of Crime (OVC)
found that in order to effectively address criminal justice issues and services
for victims of crime in Indian Country, it is vital that productive efforts are


       9
        This statistic includes 2.5 million individuals in the United States who identify
themselves as Native American, and another 1.6 million who identify themselves as part
Native American.
       10
          Throughout this report, the term “Native Americans” is used to indicate American
Indians and Alaska Natives.
       11
            BJS Special Report, Violent Victimization and Race, 1993-98, March 2001.
       12
        BJS, American Indians and Crime: A BJS Statistical Profile, 1992-2002,
December 2004.


                                            –1–
made to improve the relationship between Indian Nations, and the federal
and state governments.

       The study found that there are a wide range of concerns that
significantly impact the federal government’s ability to effectively address
the needs of victims of crime in Indian Country. 13 Specifically, the study
found that:

   •   The crime rates, especially the violent and juvenile crime rates, have
       increased in Indian Country while crime rates have declined
       nationwide.

   •   There are numerous jurisdictional complexities and limitations in
       Indian Country that present overwhelming difficulties in any effort to
       improve the relationship between tribal governments and the federal
       government. As a result, the confusing jurisdiction among tribal,
       federal, and state governments has resulted in jurisdictional gaps and
       disputes. 14 The difficulty of determining jurisdiction and provisions for
       concurrent jurisdiction of certain cases, can cause conflict and
       confusion for law enforcement, prosecution, courts, service providers,
       and crime victims in Indian Country.

   •   There is a lack of understanding and contact by the federal
       government with tribal criminal justice systems, including tribal court
       systems.

   •   Tribal justice systems are inadequately funded and the lack of
       adequate funding impairs their operation.

   •   The lack of facilities and resources available to most criminal justice
       systems is complicated by the isolated, rural location of most Indian
       reservations.


Office for Victims of Crime

      In an effort to address the needs of crime victims, including those in
Native American communities, Congress established the OVC in 1988

       13
          The Center on Child Abuse and Neglect, Improving the Relationship between
Indian Nations, the Federal Government, and State Governments: Developing and
Implementing Cooperative Agreements or Memorandums of Understanding, March 2000.
       14
            See Appendix I of this report for an analysis of criminal jurisdiction in Indian
Country.


                                              –2–
through an amendment to the Victims of Crime Act (VOCA) of 1984. Upon
its creation, the OVC became the primary agency within the Department of
Justice (DOJ) responsible for enhancing the nation’s capacity to assist crime
victims and provide leadership in changing attitudes, policies, and practices
to promote justice, and healing for all crime victims. To accomplish its
mission, the OVC:

      •   provides funding for direct services to crime victims;
      •   provides training programs that reach diverse professionals nationally and
          internationally;
      •   sponsors demonstration projects and programs that have national impact;
      •   publishes and disseminates materials that highlight promising practices that
          can be replicated for the effective treatment of crime victims;
      •   offers technical assistance to governments, private sector programs, and
          others; and
      •   develops policy and establishes public awareness initiatives.


       Funding for the OVC’s programs is provided from the Crime Victims
Fund, which was established by VOCA to support victim services and training
for advocates and professionals. Fund dollars are derived from criminal
fines, forfeited bail bonds, penalties, and special assessments from offenders
convicted of federal crimes, and are collected by the federal courts,
U.S. Attorneys’ Offices, and the Federal Bureau of Prisons. During Fiscal
Years (FYs) 2000 through 2004, funding provided by the Crime Victims Fund
totaled $2.91 billion.


Tribal Victim Assistance Programs

       In 1988, the OVC created the Victim Assistance in Indian County
(VAIC) Discretionary Grant Program to establish, expand, and improve
victim assistance services in Native American communities governed by
federal criminal jurisdiction. The VAIC program was designed to address the
lack of victim assistance programs and bridge the gap between criminal
justice agencies and service providers. Under the VAIC program, during
FYs 1999 through 2002, the OVC provided funding totaling $5,466,995
directly to 40 Native American communities to help them establish
reservation-based victim assistance programs. In FY 2003, the OVC
expanded the VAIC program to all federally recognized tribes, regardless of
criminal jurisdiction, and renamed it the Tribal Victim Assistance (TVA)
program. During FYs 2003 and 2004, the OVC has awarded $4,976,524
under the TVA program to 24 Native American communities throughout the
United States.


                                          –3–
Allowable Uses of Victim Assistance Funding

      Under the OVC tribal victim assistance program, applicants are
required to plan and implement a 3-year program to improve the ability of
Native American communities to provide direct services to crime victims. 15
Generally, services provided under the OVC tribal victim assistance program
include, but are not limited to the following:

   •   Services that immediately respond to the emotional and physical
       needs (excluding medical care) of crime victims, such as intervention;
       accompaniment to hospitals for medical examinations; hotline
       counseling; emergency food, clothing, transportation, and shelter;
       emergency legal assistance; and other emergency services that are
       intended to restore victims’ sense of dignity and self-esteem.

   •   Mental health assistance, such as counseling, group treatment,
       support groups, and therapy.

   •   Advocacy on behalf of crime victims, including accompaniment to
       criminal justice offices and court, transportation to court, child care to
       enable a victim to attend court, restitution advocacy, and assistance
       with victim impact statements.

   •   Services that offer an immediate measure of safety to crime victims,
       such as boarding up broken windows and replacing or repairing locks.

   •   Forensic medical examinations for sexual assault victims to the extent
       that other funding sources are not available.

   •   Costs necessary and essential for providing direct services to victims,
       such as pro-rated costs for rent, telephone service, transportation
       costs, and local travel expenses for direct service providers.

   •   Costs directly related to providing direct services through staff,
       including salaries and fringe benefits.

   •   Training for law enforcement personnel in the delivery of services to
       crime victims.

   •   Promoting coordinated efforts within the community to aid crime
       victims.

       15
           Throughout this report, the phrase “OVC tribal victim assistance program” is used
to refer to both the former VAIC and current TVA programs.


                                           –4–
   •   Assistance for those seeking crime victim compensation benefits.

   •   Preparation, publication, and distribution of material that explains
       services offered to crime victims.

      The following services, activities, and costs are not generally
considered direct crime-victim services, but are often considered a necessary
and essential activity to ensure that quality direct services are provided.
These costs may be considered for coverage under the OVC tribal victim
assistance program, provided that direct services to crime victims cannot be
offered without support for these expenses; the tribal grantee has no other
source of support for them; and only limited amounts of program funds will
be used for these purposes, including the following:

   •   skills training for staff;

   •   equipment and furniture;

   •   contracts for professional services;

   •   operating costs, such as supplies, printing, postage, and brochures
       that describe available services, books, and other victim-related
       materials;

   •   supervision of direct service providers, such as volunteer coordinators;

   •   repair and replacement of essential items;

   •   presentations made in schools, community centers, or other public
       forums designed to identify crime victims and to provide or refer them
       to needed services; and

   •   vehicle leasing.


Collaboration

      Tribal grantees are encouraged to demonstrate strategies that include
collaboration with appropriate local and federal agencies involved in assisting
victims. Specifically, collaboration with the following agencies is deemed
essential under the OVC tribal victim assistance program: (1) the
U.S. Attorneys’ Offices (USAO); (2) the Federal Bureau of Investigation
(FBI); (3) state, local, and tribal criminal justice agencies; (4) Indian Health


                                      –5–
Services; (5) child protective services; and (6) other appropriate tribal and
non-tribal agencies.


Performance Measures Under the Victim Assistance Programs

        To ensure compliance with the Government Performance and Results
Act (GPRA), Public Law 103-62, grantees are required to collect and report
data that measures the results of the programs implemented under the
OVC tribal victim assistance program. To ensure accountability under GPRA,
the OVC requires the following performance measures to be reported in the
semi-annual Categorical Assistance Progress Reports (progress reports) for
its tribal victim assistance program:

      •   number of victims served and type of victimization,

      •   number of staff supported by grant funds,

      •   number of volunteer hours,

      •   number of publications produced,

      •   number of training workshops for law enforcement,

      •   type of services provided, and

      •   progress on goals and objectives identified by the program,

          In the 2005 TVA solicitation, the performance measures were changed
to:

      •   percent of increase in the number of victim services provided,

      •   percent of increase in the number of victim services training
          workshops provided, and

      •   percent of increase in the number of victim compensation claims
          submitted.


Prior Reviews

      The Office of the Inspector General (OIG) previously conducted an
audit on the Administration of Department of Justice Grants Awarded to


                                        –6–
Native American and Alaska Native Tribal Governments, Report No. 05-18,
March 2005. The prior audit found significant issues with the adequacy of
grant monitoring, which is an essential management tool that ensures grant
programs are implemented, objectives are achieved, and tribal grantees
have expended funds properly. Additionally, the report noted that the
granting agencies did not ensure that tribal grantees submitted the
necessary information to assess grant implementation or to achieve the
grant program objectives. Further, there was no consistency in the
information provided in the required progress reports that were submitted.
Specifically:

  •   For the majority of the grants reviewed, one or more required financial
      and progress reports, which contain the minimum information
      necessary to determine whether grant programs were implemented
      and grant objectives were achieved (especially final reports), were not
      submitted or were not submitted in a timely manner.

  •   A review of the obligation and utilization of grant funds found that the
      tribal-specific grant programs were not always fully implemented in a
      timely manner, an indication that grant objectives were not achieved,
      and that the current programs were not fully effective in meeting the
      criminal justice needs of tribal governments.

      These findings are consistent indications that the OVC and other
granting agencies were not effectively monitoring and administering the DOJ
grants awarded to tribal governments. Additionally, the DOJ had no
assurances that the objectives of its tribal-specific grant programs were
being met or that expenditures of grant funds were in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grants.


Audit Objective

      The DOJ OIG conducted the current audit to evaluate the effectiveness
of the OVC tribal victim assistance grant program. The objective of our audit
was to obtain grant performance information directly from tribal grantees
and to evaluate whether grant programs were fully implemented and
program objectives were achieved.




                                    –7–
      According to the DOJ Strategic Plan, implementing an effective
program planning and implementation cycle is essential to
performance-based management. An effective cycle involves: (1) setting
long-term performance goals and objectives; (2) translating long-term
performance goals into budgets and program plans; and (3) implementing
programs, monitoring program performance, and evaluating program
results, as shown in Figure 1.

       FIGURE 1.      STRATEGIC PLANNING CYCLE




       Source: DOJ Strategic Plan, Fiscal Years 2003-2008

       Grant program effectiveness starts with overall program structure and
design, incorporating adequate oversight and evaluation. We reviewed OVC
documents and interviewed program officials to determine whether the OVC
tribal victim assistance program had a well-defined purpose intended to
support a specific problem; and was designed to fill a unique role or
unnecessarily duplicated, overlapped, or competed with other federal or
non-federal programs.

     For grant programs to encompass effective strategic planning, they
must have:

  •   long-term performance measures that guide program management
      and budgeting, and promote results and accountability;

  •   a limited number of annual performance measures that directly
      support desired long-term goals;


                                       –8–
   •   challenging but realistic quantified targets that are established to
       evaluate annual performance measures;

   •   performance data and program evaluations that are used to evaluate
       program effectiveness;

   •   integrated performance-planning and budget-planning processes, so
       that resource-allocation decisions reflect the desired performance; and

   •   clear results, despite the effects of funding and other policy changes.

       Finally, to determine if performance information was used to manage
the OVC tribal victim assistance program and improve performance, we
determined whether the OVC: (1) used the reported data to inform program
management, make resource decisions, and evaluate program performance;
(2) held its program managers and tribal grantees accountable;
(3) administered funds efficiently and obligated them in accordance with
planned schedules; (4) implemented adequate oversight practices that
provided sufficient knowledge of tribal grantee activities; and (5) collected
tribal grantee performance data on an annual basis.

      The details of the results of our audit are contained in the Findings and
Recommendations section of this report. Additional information related to
our audit objectives, scope, and methodology appears in Appendix II.




                                      –9–
                 FINDINGS AND RECOMMENDATIONS


I.     OFFICE FOR VICTIMS OF CRIME

       We found that the OVC did not incorporate adequate strategic
       planning into its tribal victim assistance program, which was
       necessary to implement effective performance-based
       management. Specifically, the OVC did not establish long-term
       or annual performance goals, nor tie program funding decisions
       to program effectiveness. The OVC also did not conduct any
       evaluations to determine the effectiveness of its tribal victim
       assistance program. However, in FY 2001 the OVC did provide
       approximately $25,000 in funding to the National Institute of
       Justice (NIJ) to conduct assessments of four tribal victim
       assistance grant recipients to determine whether or not the tribal
       grantee programs could be evaluated. The OVC also provided
       the NIJ with an additional $425,200 to evaluate the effectiveness
       of two 2003 TVA grantees with awards totaling $197,689. 16 The
       NIJ awarded a grant to conduct this evaluation to the American
       Indian Development Associates, Inc. in September 2005.
       Additionally, we found that the OVC did not use performance
       information reported by tribal grantees to: (1) manage its tribal
       victim assistance program and improve performance, (2) report
       on the tribal victim assistance program as a whole, and
       (3) evaluate the effectiveness of victim assistance programs
       implemented by individual tribal grantees. Finally, the OVC did
       not ensure that progress reports were submitted. There also
       was no guidance on collecting performance information, nor was
       there consistency or comparability among tribal grantees in
       performance information that was reported. As a result, the
       OVC could not adequately demonstrate progress in achieving its
       tribal victim assistance program objectives.


Program Purpose

      We evaluated the OVC tribal victim assistance program to determine
whether the program had a well-defined purpose intended to support a
specific problem. The OVC tribal victim assistance program was designed to

       16
          According to OVC officials the evaluations will cover the entire 3-year award
period, which would include grant funds totaling $554,531, rather than the $197,689 for
FY 2003 that was specifically identified in the grant solicitation.


                                         – 10 –
support the lack of victim assistance programs “on reservations” and in
remote parts of Indian Country, where violence is higher than for any other
ethnic group. In other words, the purpose of the OVC tribal victim
assistance program was to bridge the gap between criminal justice agencies
and service providers.

      Tribal grantees generally address long-term victim services through
referrals to appropriate local tribal and non-tribal agencies, including Indian
Health Services, child protective services, mental health clinics, and
hospitals.

        As stated in the Introduction Section of this report, services that are
provided under the OVC tribal victim assistance program include 11 general
purpose areas. However, in our review of the OVC tribal victim assistance
program, we found that because of limited funding, grant objectives
generally concentrated on providing short-term services that immediately
fell into two categories: (1) responding to the emotional and physical needs
(excluding medical care) of crime victims; and (2) advocating on behalf of
crime victims, which included transporting and accompanying crime victims
to criminal justice offices and courts.

      In order to effectively address short-term victim needs and provide
advocacy on behalf of crime victims, collaboration with the following
agencies is essential under the OVC tribal victim assistance program:
(1) the USAOs, (2) the FBI, (3) state, local, and tribal criminal justice
agencies, (4) Indian Health Services, (5) child protective services, and
(6) other appropriate tribal and non-tribal agencies. As a result, we focused
our audit on the effectiveness of the OVC tribal victim assistance program in
meeting immediate victim needs, providing advocacy on behalf of crime
victims, and collaborating with tribal and non-tribal law enforcement
agencies, courts, and service providers.


Program Design

      The OVC tribal victim assistance program was designed to address
multiple types of victimization. However, we found that there are currently
similar programs that appear to address specific types of victimization that
might be duplicated under the OVC tribal victim assistance program. These
programs include:

   •   STOP Violence Against Indian Women Discretionary Grant Program –
       Intended to develop and strengthen tribal law enforcement and
       prosecution efforts to combat violence against Native American


                                    – 11 –
      Women and to develop and enhance services for victims of such
      crimes.

  •   Grants to Encourage Arrest Policies and Enforcement of Protection
      Orders Program – Designed to encourage state, local, and tribal courts
      to treat domestic violence as a serious violation of criminal law. The
      program requires the coordinated involvement of the entire criminal
      justice system, and at least 5 percent of its funding must be available
      as grants to tribal governments.

  •   Rural Domestic Violence and Child Victimization Enforcement Grant
      Program – Designed to enhance services available to rural victims and
      children by encouraging community involvement in developing a
      coordinated response to domestic violence, dating violence, and child
      abuse. Eligible applicants include tribal governments in rural and
      non-rural states. At least 5 percent of the funding for this program
      must be available as grants to tribal governments.

  •   Legal Assistance for Victims Grant Program – Designed to strengthen
      legal assistance programs for victims of domestic violence, sexual
      assault, and stalking. Five percent of the funding for this program is
      set aside as grants for programs that assist victims of domestic
      violence, sexual assault, and stalking, on lands within the jurisdiction
      of tribal governments.

  •   Safe Havens: Supervised Visitation and Safe Exchange Grant
      Program – Designed to help create safe places for visitation with and
      exchange of children in cases of domestic violence, child abuse, sexual
      assault, or stalking. At least 5 percent of the funding for this program
      is available as grants to tribal governments.

  •   Children's Justice Act Partnerships for Indian Communities
      Program – Designed to help tribal justice systems address serious child
      abuse cases. The program develops specialized services and
      procedures to address the victim needs of Native American children,
      and strategies to handle cases of child sexual assault.

      As shown in Table 1, during FYs 2000 through 2004, the Office of
Justice Programs (OJP) and the Office on Violence Against Women (OVW)
awarded grants totaling $77.16 million to Native American communities, for
the programs listed above.




                                    – 12 –
TABLE 1.     TRIBAL FUNDING AWARDED (Dollars in Millions)
                            FY 2000 FY 2001 FY 2002 FY 2003 FY 2004           TOTAL
STOP Violence Against
 Indian Women
 Discretionary Grant
 Program                      $5.92       $7.65     $4.84    $6.90    $5.36   $30.67
Grants to Encourage
 Arrest Policies and
 Enforcement of
 Protection Orders
 Program                      $1.06       $1.48     $3.34    $4.87    $3.15   $13.90
Rural Domestic Violence
 and Child Victimization
 Enforcement Grant
 Program                      $1.50       $3.70     $4.85    $3.95    $4.10   $18.10
Legal Assistance for
 Victims Grant Program        $0.22       $1.48     $0.92    $1.99    $2.10    $6.71
Safe Havens: Supervised
 Visitation and Safe
 Exchange Grant
 Program                       ---         ---      $0.24    $0.38    $0.67    $1.29
Children's Justice Act
 Partnerships for Indian
 Communities Program          $0.56       $1.22     $1.44    $1.56    $1.71    $6.49
           TOTAL             $9.26       $15.53    $15.63   $19.65   $17.09   $77.16
Source: The Office of Justice Programs

       An OVC official stated that they reviewed the tribal victim assistance
program grant applications to determine whether the focus of the program
addressed crimes not covered by other programs. The official also stated
that they would not fund programs that only addressed domestic violence or
child abuse, since there was funding available through other sources for
these types of victimization. However, as shown in Finding IV, we found
that the OVC funded the Mississippi Band of Choctaw Indians victim
assistance program, which focused on victims of non-major domestic crimes.


Strategic Planning

      We evaluated the OVC tribal victim assistance program structure and
design to determine whether the programs incorporate adequate strategic
planning, which is essential in evaluating program effectiveness. We found
that the OVC tribal victim assistance program structure and design does not
incorporate any strategic planning. Specifically:

   •   Programs should have specific long-term performance goals that focus
       on outcomes and meaningfully reflect the purpose of the programs.


                                          – 13 –
      We found that no long-term performance goals were established for
      the OVC tribal victim assistance program.

  •   Programs should have annual performance goals that demonstrate
      progress toward achieving long-term goals. Annual performance goals
      enable program management to detect deficiencies in program
      performance and develop corrective actions in a timely manner. We
      found that no annual performance goals were established for the OVC
      tribal victim assistance program.

  •   Budget requests are tied to the accomplishment of annual and
      long-term performance goals. It is also essential that program
      performance and budget planning processes are integrated so that
      resource-allocation decisions reflect program effectiveness. We found
      that the OVC was not required by OJP to provide performance
      information with budget requests for its tribal victim assistance
      program. Additionally, since annual and long-term performance goals
      were not established, funding could not be tied to program
      effectiveness.

      Since no long-term or annual performance goals were established for
the OVC tribal victim assistance program and performance information was
not reported or tied to budget requests, we reviewed the program to
determine whether evaluations were conducted on a regular basis.

      We found that the OVC did not conduct any evaluations to determine
the effectiveness of its tribal victim assistance program. However, in
FY 2001 the OVC did provide approximately $25,000 in funding to the NIJ to
conduct assessments of four tribal victim assistance grant recipients to
determine whether or not the tribal grantee programs could be evaluated.
The assessment reports were issued in July 2004, and recommended that
three of the four individual grantee tribal victim assistance programs be
evaluated. It was also suggested that the fourth program might be a good
candidate for an evaluation. The programs are listed below.

  •   Choctaw Nation of Oklahoma Victim Assistance Program – The report
      recommended that since this program is new, an evaluation could
      provide valuable lessons for tribes wishing to establish victim
      assistance programs.

  •   Lummi Nation Victims of Crime Program – The report recommended
      that since this program is well-established, widely known, highly
      regarded, and well-positioned because of its automated database on
      clients and services, an evaluation could prove useful.


                                  – 14 –
   •   Turtle Mountain Band of Chippewas Victims of Crime Assistance
       Program – The report recommended that since this program is
       well-established and highly regarded, it could serve as a model for
       other tribes wishing to implement victim service programs.

   •   Passamaquoddy at Pleasant Point Victim Outreach Advocate
       Program – The report recommended that this program might be a
       good candidate for evaluation, because it is in its initial stages, a
       natural comparison group exists, the project is well-designed, and law
       enforcement and court electronic data systems appear to be
       sophisticated. However, the report also found that an evaluation may
       be difficult, because the small number of people living in the service
       area make it hard to obtain enough statistical data to detect
       differences between treatment and comparison groups, and because,
       individuals move back and forth between the Pleasant Point and Indian
       Township reservations.

      The OVC also provided the NIJ with an additional $425,200 to evaluate
the effectiveness of two 2003 TVA grants awarded to the Lummi Indian
Nation and the Passamaquoddy Tribe at Pleasant Point. The two grants to
be evaluated, which were funded in the amount of $197,689, were awarded
for the period September 1, 2003, through August 31, 2004. 17 The
evaluation will take place over a 2-year period and should be completed by
December 2007. According to the solicitation, evaluations of these two
programs will inform and enhance knowledge in the development and
implementation of victim services in Native American communities.
Specifically, the information gathered from the evaluation will be used by the
OVC to report on the progress of the tribal victim assistance program and
the delivery of services to victims in Native American communities. It will
also be used to inform tribal, state, and federal leaders, and government
funding agencies on the delivery of victims’ services to multiple sites in
Indian Country.

      In our judgment, expending $425,200 to evaluate grant programs with
funding totaling less than $200,000 may not be the most effective use of
limited victim assistance resources. We discussed this issue with OVC and
NIJ officials, who stated that although the evaluations cannot be used to
determine the effectiveness of the OVC tribal victim assistance program as a



       17
          According to OVC officials the evaluations will cover the entire 3-year award
period, which would include grant funds totaling $554,531, rather than the $197,689 for
FY 2003 that was specifically identified in the grant solicitation.


                                         – 15 –
whole, they expect that the findings will produce lessons learned for similar
tribal programs.


Program Management

     We evaluated the OVC tribal victim assistance program to determine
whether performance information was used to manage the program and
improve performance. In order to evaluate the adequacy of program
management, we reviewed the OVC tribal victim assistance program to
determine whether:

   •   program officials regularly collected timely and credible performance
       information from tribal grantees receiving victim assistance funding;

   •   program officials used performance information reported by tribal
       grantees to manage the program and improve performance;

   •   program officials were held accountable for performance results;

   •   funds were obligated in a timely manner and spent for intended
       purposes;

   •   grant applications were reviewed based on clear criteria and awards
       were made based on results of a peer review process;

   •   program officials had oversight practices that provided sufficient
       knowledge of program activities; and

   •   program officials collected performance data on an annual basis.

       As stated previously in the Introduction section of this report, the OVC
required tribal grantees receiving tribal victim assistance funding to include
information on performance measures in their progress reports. However,
we found that the OVC did not provide any guidance to tribal grantees on
collecting and reporting performance information. The OVC also did not
provide tribal grantees with definitions of the terms used in the required
performance measures, such as what constitutes a victimization, service,
publication, or training workshop. Additionally, the OVC did not provide any
guidance on tabulating performance information. For example, if a victim
received crisis counseling on 10 separate occasions, the OVC did not provide
guidance as to whether the tribal grantee should report 1 service to the
victim, or 10. During our audit, we found instances where one grantee
reported one service per victim in some periods, and the number of times


                                     – 16 –
the same service was provided in other periods. As a result of the OVC’s
failure to provide guidance to tribal grantees on collecting and reporting
performance information, there was no consistency among tribal grantees’
reporting. Therefore, the reported performance information was not
comparable between tribal grantees.

      Additionally, we also found that despite the fact that tribal grantees
were required to include performance information in their progress reports,
the OVC did not use the reported information to manage its tribal victim
assistance program or improve performance. Specifically:

  •   The OVC did not summarize the performance information reported by
      tribal grantees in order to report on its tribal victim assistance
      program as a whole; and

  •   The performance information reported by tribal grantees was not used
      to evaluate the effectiveness of the individual grantee tribal victim
      assistance programs.


Program Results

       We evaluated the OVC tribal victim assistance program to determine
whether the OVC demonstrated progress in achieving the overall program
objectives. Although the OVC did not provide any guidance on collecting and
reporting performance information, we attempted to use statistical data from
the tribal grantee progress reports to assess the effectiveness of the OVC
tribal victim assistance program as a whole for the required performance
measures.

      We reviewed the progress reports submitted by each of the 25 tribal
grantees awarded 2003 victim assistance grants for the periods ending
December 31, 2003; June 30, 2004; and December 31, 2004. Based on the
results of our review, we found that the performance data contained in the
submitted progress reports could not be used to generate statistical
information on the effectiveness of the OVC tribal victim assistance program
as a whole. Specifically, we found that:

  •   Only 68 percent (17 of 25) of tribal grantees submitted all 3 progress
      reports.

  •   Only 8 percent (2 of 25) of tribal grantees reported on all
      6 performance measures for the period ending December 31, 2003.



                                   – 17 –
  •   Only 24 percent (6 of 25) of tribal grantees reported on all
      6 performance measures for the period ending June 30, 2004.

  •   Only 28 percent (7 of 25) of tribal grantees reported on all
      6 performance measures for the period ending December 31, 2004.

      Based on our review, it does not appear that the OVC ensured that
progress reports contained the required information on performance
measures when the reports were submitted. We also found that there was
no consistency among tribal grantees in how performance information was
reported. For example, for the performance measure on the number of
publications produced, we found that some tribal grantees reported the
number of new publications developed during the period, while others
reported the number of copies of the same publication generated during the
period. As a result, the number of publications produced, ranged from 1 to
26 for those tribal grantees reporting on the number of new publications,
and 100 to 2,500 for tribal grantees reporting on the number of copies of the
same publication. In another example, we found that for the performance
measure on the number of volunteer hours, one grantee included staff time
in excess of a normal work day as volunteer hours. As stated previously, we
also found instances where one grantee reported one service per victim in
some periods, and the number of times the same service was provided in
other periods.

      We believe that the OVC needs to establish a standardized progress
report that captures required performance measure information and includes
guidance to tribal grantees on collecting and reporting the information. This
information should include definitions of terms used in the required
performance measures, such as what constitutes a victimization, service,
publication, or training workshop, and also should include guidance on
tabulating performance information. Additionally, the OVC needs to ensure
that required progress reports are submitted with all required performance
measure data.


Conclusion

       We found that the OVC did not incorporate adequate strategic planning
into its tribal victim assistance program, which was necessary to implement
effective performance-based management. The OVC also did not establish
any long-term or annual program goals for its tribal victim assistance
program by which program effectiveness is measured. In addition, the OVC
was not required to provide performance information with its budget



                                   – 18 –
requests for the tribal victim assistance program; as a result, program
funding decisions were not tied to program effectiveness.

      At the time of our audit, the OVC had not conducted any evaluations
to determine the effectiveness of its tribal victim assistance program.
However, in FY 2001 the OVC did provide approximately $25,000 in funding
to the NIJ to conduct assessments of four tribal victim assistance grant
recipients to determine whether or not the tribal grantee programs could be
evaluated. The OVC also provided the NIJ with an additional $425,200 to
evaluate the effectiveness of two 2003 TVA grantees with awards totaling
$197,689. The NIJ awarded a grant to conduct this evaluation to the
American Indian Development Associates, Inc. in September 2005.

       We discussed our concerns related to expending $425,200 to evaluate
two individual grantee tribal victim assistance programs with funding totaling
less than $200,000 with OVC and NIJ officials. The officials stated that
although the evaluations cannot be used to determine the effectiveness of
the OVC tribal victim assistance program as a whole, they expect that the
findings will produce lessons learned for similar tribal programs.

       Finally, we attempted to review progress reports submitted by each of
the 25 tribal grantees awarded 2003 victim assistance grants to determine
whether the OVC tribal victim assistance program demonstrated progress in
achieving its objectives. We found that OVC program officials and tribal
grantees were not held accountable for performance results. Reported
performance information was not used to evaluate the effectiveness of the
OVC tribal victim assistance program as a whole or the effectiveness of
individual grantee tribal victim assistance programs. Additionally, as a result
of the OVC’s failure to provide guidance to tribal grantees on collecting and
reporting performance information, there was no consistency in how
performance information was reported, and the information reported was
not comparable between tribal grantees. As a result, we were unable to
compile information from progress reports that generated statistical
information on the program results for the OVC tribal victim assistance
program as a whole. Instead, we attempted to evaluate the effectiveness of
individual grantee tribal victim assistance programs as discussed in the
following sections of this report.

      We selected the four tribal grantees, who received victim assistance
funding, for which financial audits had been conducted previously as part of
our audit on the Administration of Department of Justice Grants Awarded to
Native American and Alaska Native Tribal Governments, Report No. 05-18,




                                    – 19 –
March 2005. 18 Those tribal grantees, discussed in separate findings later in
this report, included the:

         •    Sault Ste. Marie Tribe of Chippewa Indians, Sault Ste. Marie, Michigan,
              Finding II
         •    Oglala Sioux Tribe, Pine Ridge, South Dakota, Finding III
         •    Mississippi Band of Choctaw Indians, Philadelphia, Mississippi, Finding IV
         •    Lummi Indian Nation, Bellingham, Washington, Finding V


     In order to evaluate the effectiveness of the victim assistance
programs implemented by the four individual tribal grantees, we determined
whether each tribal grantee:

     •   implemented the objectives of its victim assistance grant;

     •   accurately reported grant activities in its progress reports;

     •   maintained statistical data supporting program performance;

     •   documented any program accomplishments;

     •   collaborated effectively with criminal justice agencies and service
         providers; and

     •   developed plans to sustain the victim assistance program upon the
         expiration of grant funding. 19


Recommendations

         We recommend that the OVC:

1.       Establish long-term and annual performance goals for its tribal victim
         assistance program.

2.       Ensure that resource-allocation decisions reflect program
         effectiveness.


         18
          See Appendix III for a summary of the financial audits previously conducted for
each of the four grantees selected for this audit.
         19
          Additional information related to our audit objectives, scope, and methodology
appears in Appendix II.


                                              – 20 –
3.   Provide tribal grantees with definitions of terms used for the required
     performance measures and guidance on tabulating the performance
     information reported.

4.   Establish a standardized progress report that captures required
     performance measure information.

5.   Ensure that progress reports include required performance measure
     data.

6.   Summarize the performance information reported by tribal grantees to
     report on the effectiveness of its tribal victim assistance program as a
     whole.

7.   Utilize the performance information reported by tribal grantees to
     evaluate the effectiveness of individual grantee tribal victim assistance
     programs, and to follow up with tribal grantees demonstrating poor
     program performance.




                                   – 21 –
II.   SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS

      The Sault Ste. Marie Tribe of Chippewa Indians effectively
      implemented a comprehensive victim assistance program that
      bridged the gap between the criminal justice system and victims.
      Specifically, we found that the tribe: (1) effectively
      accomplished the goals outlined for its victim assistance grant,
      (2) increased the number of victims served by 30 percent during
      the first year of the grant and 86 percent over the life of the
      grant, and (3) provided a wide variety of comprehensive services
      to victims. Based on questionnaires provided to victims, we
      found that they believed that the tribe’s victim assistance
      program was effective in meeting their needs. Additionally,
      based on interviews and questionnaires with representatives
      from collaborating agencies, we found that they also believed
      that the victim assistance program was effective in meeting
      victims’ needs. Although we found that the victim assistance
      program implemented by the Sault Ste. Marie Tribe was
      effective, we noted that the statistical data in the progress
      reports included all grant programs administered by the tribe’s
      Victim Advocacy Center and was not reported accurately.


      The Sault Ste. Marie Tribe of Chippewa Indians is a federally
recognized Indian tribe located near the city of Sault Ste. Marie, Michigan,
near the Canadian border. The tribe has more than 29,000 enrolled
members, most of whom live off the reservation in the recognized tribal
service area, which covers approximately 1,265 acres throughout seven
counties of the eastern Upper Peninsula of Michigan.

       The Sault Ste. Marie Tribe indicated in its grant application that the
majority of crimes occurring within tribal lands included domestic
violence, sexual offenses, and child abuse. The majority of cases addressed
by the tribe’s victim assistance program are related to domestic violence,
child physical abuse, and child sexual abuse. The tribe proposed to
strengthen services to victims of crime by hiring a victim services
coordinator to assist victim advocates in providing comprehensive services
through its Victim Advocacy Center. The application also stated that the
additional position was necessary because the Victim Advocacy Center was
unable to provide the best possible assistance to victims due to the wide
service area covered. For example, it is a 6-hour round trip between Sault
Ste. Marie and Marquette, Michigan, where the nearest USAO and FBI offices
are located.



                                    – 22 –
      As shown in Table 2, the Sault Ste. Marie Tribe was awarded a victim
assistance grant, including three supplemental awards, totaling $184,004.

         TABLE 2. VICTIM ASSISTANCE GRANTS AWARDED TO
                  THE SAULT STE. MARIE TRIBE OF CHIPPEWA
                  INDIANS
                                 AWARD START        AWARD         AWARD END
                 GRANT              DATE            AMOUNT          DATE
          1999VRGX0006            04/01/99          $46,001        03/31/00

             Supplement 1         04/01/99          $46,001        03/31/01

             Supplement 2         04/01/99          $46,001        03/31/02

             Supplement 3         04/01/99          $46,001        09/30/03

                         Total                    $184,004

         Source: Office of Justice Programs



Implementing the Grant Program Objectives

      In its original grant application and award documentation, the Sault
Ste. Marie Tribe established program objectives and measures to track
progress, which were consistent with the overall goal of the OVC tribal victim
assistance program, as shown in Table 3.

TABLE 3. PROGRAM OBJECTIVES AND MEASURES
               PROGRAM OBJECTIVE                                MEASURE
 •   Hire a full-time victim services           •   The number of victims that received
     coordinator to enhance the prosecution         services.
     of crimes and increase the provision of
     services to victims and their families.
 •   Establish a 24-hour crisis hotline to      •   The number of victims that received
     provide immediate assistance to victims        services.
     of crime.
 •   Provide comprehensive services to          •   The number of referrals to service
     victims.                                       agencies provided to victims and the
                                                    number of victims that were assisted
                                                    in obtaining services.
 •   Increase the number of victims receiving   •   The number of referrals received.
     services.




                                         – 23 –
               PROGRAM OBJECTIVE                                   MEASURE
 •   Reduce the barriers that prevent victims    •   The number of victims that were
     from cooperating with the criminal              assisted with: (1) filing a complaint,
     justice system.                                 (2) being informed of court
                                                     processing, and (3) preparing victim
                                                     rights forms and victim impact
                                                     statements.
Source: Grant application for Grant No. 1999VRGX0006

      We found that with the exception of hiring a victim advocate within
1 month of the grant start date, timelines had not been established for
achieving grant objectives. However, the Sault Ste. Marie Tribe generally
accomplished the goals and objectives outlined for its victim assistance
grant.

      We were unable to determine whether the Sault Ste. Marie Tribe was
successful in increasing the services provided to crime victims. During the
grant period, the tribe made several changes in the way that it collected and
reported data related to the number of services provided to victims. As a
result, the data was not comparable between reporting periods. Additional
information related to statistical data is discussed later in this section of the
report.


Reporting Progress Accurately

      We found that the Sault Ste. Marie Tribe generally submitted required
progress reports with the required information. However, the final progress
report was not submitted, as shown in Table 4.

        TABLE 4. ANALYSIS OF PROGRESS REPORTS
                                    REPORT DUE       DATE REPORT
              REPORT PERIOD            DATE           SUBMITTED        DAYS LATE
           04/01/99 – 06/30/99        07/30/99         Not Dated

           07/01/99 – 12/31/99        01/30/00         Not Dated

           01/01/00 – 06/30/00        07/30/00         07/26/00              -

           07/01/00 – 12/31/00        01/30/01         01/26/01              -

           01/01/01 – 06/30/01        07/30/01         07/23/01              -

           07/01/01 – 12/31/01        01/30/02         01/18/02              -

           01/01/02 – 06/30/02        07/30/02         07/16/02              -

           07/01/02 – 12/31/02        01/30/03         01/30/03              -




                                         – 24 –
                                      REPORT DUE      DATE REPORT
                REPORT PERIOD            DATE          SUBMITTED      DAYS LATE
             01/01/03 – 06/30/03        07/30/03       07/22/03            -

             07/01/03 – 09/30/03        01/28/04     Not Submitted

            Source: The Office of Justice Programs

       Additionally, we found that progress reports did not accurately reflect
the Sault Ste. Marie Tribe’s victim assistance grant program activity. The
statistical information reported in the progress reports submitted to the OVC
could not be verified to source documentation. Tribal grantee officials could
not provide an explanation as to why the statistical information maintained
by the program did not match what was reported.


Statistical Data Supporting Program Performance

      The statistics reported for the Sault Ste. Marie Tribe’s victim assistance
program included data for all grant programs administered by the tribe’s
Victim Advocacy Center. During FYs 2000 through 2004, the tribe also
received $3,762,529 in awards through the following DOJ grant programs,
which include a component of victim assistance: 20

   •   STOP Violence Against Indian Women Discretionary Grant Program;

   •   Rural Domestic Violence and Child Victimization Enforcement Grant
       Program;

   •   Legal Assistance for Victims Grant Program;

   •   Grants to Encourage Arrest Policies and Enforcement of Protection
       Orders Program; and the

   •   Children's Justice Act Partnerships for Indian Communities Program.

       Tribal grantee officials stated that it was not possible to separate out
statistics for a particular grant. Officials also stated that they did not receive
any guidance from the OVC on collecting and reporting performance
information, including definitions of terms used in the required performance
measures, such as what constitutes a victimization, service, publication, or
training. They also did not receive guidance on tabulating the performance
information. For example, if a victim received crisis counseling on

       20
         See Finding I of this report for a description of the other DOJ grant programs
awarded to the Sault Ste. Marie Tribe.


                                           – 25 –
10 separate occasions, the OVC did not provide guidance as to whether the
tribal grantee should report 1 service provided or 10. During the grant
period, the tribe reported both one service per victim and the number of
times the same services were provided to a victim depending on the
requirements of other grants. As a result, the number of services provided
was not comparable between reporting periods.

      Although statistical data was not reported accurately, the Sault Ste.
Marie Tribe did maintain data related to the number of victims served. As a
result, we were able to generate statistical information on that requirement
and used our data to assess the effectiveness of its victim assistance
program.

      The Sault Ste. Marie Tribe received its victim assistance grant in 1999;
therefore, we used 1998 statistical data as the baseline for the grant. We
found that the number of victims served increased each year of the grant
program, indicating that the tribe implemented an effective victim assistance
grant program.

CHART 1. NUMBER OF VICTIMS SERVED THROUGH THE SAULT STE.
         MARIE TRIBE OF CHIPPEWA INDIANS’ VICTIM
         ASSISTANCE PROGRAM

                                NUMBER OF VICTIMS SERVED


   350                                                      321
                                                     292                301
   300
                                       257
   250                    224

   200      173

   150

   100

    50

     0
            1998         1999          2000          2001   2002   Jan - Sept 2003


Source: Sault Ste. Marie Tribe of Chippewa Indians




                                        – 26 –
      As shown in Chart 1, the number of victims served increased by
30 percent, from 173 to 224, during the first year of the grant (1999). 21
Additionally, the number of victims served increased by 86 percent, from
173 to 321, between the year prior to the grant (1998) and the last full year
of the grant (2002). Because the program ended in September 2003, we
did not have a full year of data for 2003 to include in our analysis. However,
based on the number of victims served during the first 9 months of 2003, we
projected that the Sault Ste. Marie Tribe could have provided services to as
many as 401 [(301 divided by 9 months) multiplied by 12 months] victims in
2003.


Victim Assistance Program Achievements

       We selected a sample of case files that the Sault Ste. Marie Tribe
maintained to document services provided to crime victims. We found that
the tribe provided a wide variety of comprehensive services that bridged the
gap between the criminal justice system and victims. Specifically, during
our review of case files, we identified the following services provided:

   •   Crisis Counseling – Short-term crisis counseling was designed to
       lessen the impact of victimization. Victim advocates provided
       in-person crisis counseling to crime victims and also assessed their
       needs.

   •   Criminal Justice Support – These services were designed to support
       victims during the criminal justice process. Victim advocates referred
       victims to law enforcement agencies and assisted victims in reporting
       crimes. Victim advocates also accompanied victims to court hearings,
       notified them of tribal court dates, informed them of their rights, and
       provided assistance to them in preparing a victim impact statement.

   •   Case Status – Victim advocates provided victims with information
       regarding the status of any criminal case against an accused offender.

   •   Information and Referrals – Victim advocates provided victims with
       information and referrals to service agencies that furnished counseling,
       health care, housing, food, clothing, substance abuse, and financial
       assistance.


       21
           It should be noted that these statistics include the number of victims served for
all grant programs administered by the Sault Ste. Marie Victim Advocacy Center. However,
the increase in the number of victims served can be tied to the hiring of an additional
advocate. In our judgment, the increase is related to the victim assistance grant.


                                          – 27 –
   •   Transportation to Referrals Sources – Victim advocates provided
       transportation to and from law enforcement agencies, court hearings,
       and service providers. It should be noted that the FBI and the USAO
       local offices are located 3 hours away from Sault Ste. Marie, and the
       federal court is located 5 hours away.

   •   Assistance with Personal Protection Orders – Victim advocates
       provided victims with assistance in completing the necessary
       paperwork to obtain a personal protection order.

      In addition, Sault Ste. Marie tribal officials provided the following
services that were not documented in the case files included in our sample:

   •   Assistance in Filing a Crime Victim Compensation Application – Victim
       advocates provided victims with assistance in completing
       compensation applications. 22

   •   Safety Planning – Victim advocates provided victims with assistance in
       developing a personal safety plan.

   •   Legal Aid Services – A legal aid attorney was available to provide
       assistance to victims of domestic violence, sexual assault, and
       stalking. Legal aid assistance had to be directly related to the
       victimization.

   •   Women’s Talking Circle – Victim advocates facilitated a weekly
       domestic violence educational support group.

   •   Keeping Kids Safe – Victim advocates provided support services to
       children who witnessed acts of violence.

   •   Custody Exchange Services – Victim advocates provided assistance to
       parents when changing custody and regarding visitation when a
       personal protection order was in place or there was a history of
       violence. Under Custody Exchange Services, parents had to agree to
       meet with a victim advocate in order to complete necessary paperwork
       before this service could be provided.

   •   Men’s Education Group – Victim advocates provided a 26-week
       curriculum designed to hold men accountable for their actions in
       abusive relationships.

       22
          The crime victim compensation application is a state program that may provide
assistance with crime-related costs, such as medical bills and counseling.


                                         – 28 –
   •   Women’s Lodge – The Victim Advocacy Center offered a residential
       shelter to abused women and children who needed a safe place to
       stay, because they were the victims of domestic violence, sexual
       assault, or stalking.

       We provided questionnaires to six victims who received services from
the Sault Ste. Marie Tribe’s Victim Advocacy Center, and who indicated a
willingness to be contacted. They were asked to identify what services were
received and whether or not the services were effective in meeting their
needs. Based on the six responses, victims were generally satisfied with the
services provided and felt that they were effective in meeting their needs.
Services identified by victims included: (1) crisis counseling,
(2) transportation, (3) advocacy, (4) support through the Women's Talking
Circle, (5) temporary housing, (6) food, and (7) legal services.

      Based on our review of the services provided to victims and the
responses to the recipient questionnaires, the Sault Ste. Marie Tribe’s victim
assistance program is effectively providing needed services to crime victims.


Collaborating with Criminal Justice Agencies and Service Providers

       According to Sault Ste. Marie tribal officials, the victim assistance
program collaborated with many different agencies, both within and outside
the tribal community. These agencies included, but were not limited to
those listed in the following chart:

                COLLABORATING AGENCIES IDENTIFIED BY THE TRIBAL GRANTEE

   •   Federal Bureau of Investigation            •   Northern Michigan Legal Services

   •   U.S. Attorneys’ Office                     •   Sault Ste. Marie Housing Authority
   •   State, county, and tribal law              •   Michigan tribal victim assistance
       enforcement                                    coalition
   •   Tribal health service organizations        •   State VOCA program

   •   Tribal mental health services              •   Diane Peppler Resource Center

   •   Tribal social services                     •   United Way
Source: Sault Ste. Marie Tribe

       During the audit, we conducted interviews with representatives from
tribal law enforcement, the tribal prosecutor’s office, the tribal court, and
tribal social services. From these interviews, we determined that each of the
collaborating agencies believed that the Sault Ste. Marie Tribe’s victim


                                             – 29 –
assistance program was effective in meeting victims’ needs. Specifically,
representatives from the tribal collaborating agencies made the following
statements:

  •   The Victim Advocacy Center and the victim advocates have an
      outstanding relationship in the community and provide much-needed
      support in areas not addressed by other departments, such as crisis
      counseling, support, transportation, etc.

  •   The victim advocates are very effective in working in the different
      venues of the tribal justice system, such as tribal law enforcement, the
      tribal prosecutor’s office, and the tribal court. Many times, these
      departments are solely focused on their unique role in the tribal justice
      system. Victim advocates are the mortar of the tribal justice system,
      filling in the gaps and helping coordinate the various pieces of the
      justice system.

  •   The Victim Advocacy Center has been extremely effective in meeting
      short- and long-term victim service needs, and victim advocates are
      very persistent in getting tribal law enforcement to pursue cases of
      alleged victimization.

  •   The Victim Advocacy Center has provided members of the Sault Ste.
      Marie Tribe of Chippewa Indians with strong victim advocacy that
      would not otherwise have been provided.

      Additionally, we provided questionnaires to representatives from the
FBI and USAO. From these questionnaires, we determined that both
agencies believed that the Sault Ste. Marie Tribe’s victim assistance program
was effective in meeting victims’ needs. Representatives from the FBI and
USAO made the following statements about the tribe’s victim assistance
program.

  •   We have a good working relationship with the tribe, especially in the
      area of victim services. Among other things, the tribe has created a
      multi-disciplinary team to address child sexual assault issues. That
      team meets regularly in Sault Ste. Marie.

  •   The tribe has effectively hired and trained sufficient staff members to
      ensure that the short-term needs of crime victims are appropriately
      addressed in the tribe’s various locations throughout the Upper
      Peninsula. This has, in turn, produced a positive impact on the
      success of our prosecutions.



                                    – 30 –
   •   In our opinion, the grant program is currently meeting both the
       short- and long-term victim services needs of the Sault Ste. Marie
       Tribe of Chippewa Indians.

   •   The Victim Assistance Program has been very helpful in transporting
       victims in a variety of FBI cases. It has furthered counseling and
       recovery efforts for several victims and has been true victim advocates
       in every sense.

       Based on the responses to our interviews with representatives from
tribal law enforcement, the tribal prosecutor’s office, the tribal court, and
tribal social services, and questionnaires with collaborating agencies, we
found that the Sault Ste. Marie Tribe’s victim assistance program was
effective in meeting both short- and long-term victim needs. The
collaborating agencies agreed that the victim assistance program provided
much-needed victim services that were not available through other sources.


Sustaining the Victim Assistance Program

       The OVC tribal victim assistance funding received by the Sault Ste.
Marie Tribe expired on September 30, 2003. Although it had been over one
year since the funding had expired, we found that the tribe sustained its
victim assistance program. The tribe also reclassified a position authorized
under the state VOCA program and used that funding to continue the
position originally funded under its victim assistance grant.


Conclusion

       Based on the results of our review, the Sault Ste. Marie Tribe
effectively implemented a comprehensive victim assistance program that
bridged the gap between the criminal justice system and victims. We found
that:

   •   the tribe generally achieved the objectives of its tribal victim
       assistance grant, which were consistent with the overall goal of the
       OVC tribal victim assistance program;

   •   the number of victims served increased by 30 percent during the first
       year of the grant and by 86 percent over the life of the entire grant;




                                    – 31 –
   •   the program was considered effective by victims, and by tribal and
       federal collaborating agencies in meeting both short- and long-term
       victim needs; and

   •   the program was sustained after the OVC grant funding expired.

      Although we found that the victim assistance program implemented by
the Sault Ste. Marie Tribe was effective, we noted that the statistical data in
the progress reports included all grant programs administered by the tribe’s
Victim Advocacy Center and was not reported accurately.

       In addition, we found that the Sault Ste. Marie Tribe did not receive
any guidance from the OVC on collecting and reporting performance
information, including definitions of terms used in the required performance
measures, such as what constitutes a victimization, service, publication, or
training. The tribe also did not receive guidance on tabulating the
performance information. As a result, the performance data was generally
not comparable between reporting periods.




                                    – 32 –
III.   OGLALA SIOUX TRIBE

       The Oglala Sioux Tribe did not effectively implement a
       comprehensive victim assistance program that bridged the gap
       between the criminal justice system and victims. Specifically,
       we found that the Oglala Sioux Tribe: (1) did not accurately
       report performance information in its progress reports, (2) did
       not increase the number of victims served, (3) never fully
       implemented its tribal victim assistance program because of
       frequent changes in program management, and (4) did not
       establish a plan to sustain its victim assistance program when
       the OVC victim assistance grant funding expired. However, we
       noted that the grant program objectives were generally achieved
       and based on the questionnaires provided to victims, they
       believed that Oglala Sioux Tribe’s victim assistance program was
       effective in meeting their specific needs.


      The Oglala Sioux Tribe is a federally recognized Indian tribe situated in
southwestern South Dakota on the Nebraska state line about 50 miles east
of the Wyoming border. The Pine Ridge reservation is home to
approximately 40,000 tribal members and covers approximately 2.8 million
acres of grassy plains and badlands. The reservation includes Shannon and
Bennett counties, which have been identified as the two poorest counties in
the United States, with an average per capita income of $6,285 and
$10,106, respectively.

      According to Oglala Sioux Tribe officials, the types of crimes occurring
within the boundaries of the Pine Ridge reservation included:
murder; sexual assault; child sexual assault; gang violence; elder abuse;
burglary; driving while impaired (DWI) and driving under the influence
(DUI); and vandalism. However, the majority of cases addressed by the
Oglala Sioux Tribe’s victim assistance program were related to victims
of domestic violence, assault, and elder abuse. 23

      As shown in Table 5, the Oglala Sioux Tribe received two victim
assistance grants, including a supplemental award, totaling $532,714.




       23
            The Oglala Sioux Tribe did not track cases by the type of victimization until 2003.


                                            – 33 –
       TABLE 5. VICTIM ASSISTANCE PROGRAM GRANTS
                AWARDED TO THE OGLALA SIOUX TRIBE
                               AWARD START       AWARD     AWARD END
               GRANT              DATE           AMOUNT      DATE
        2002VRGX0011             09/01/02       $148,714   08/31/03

        2003VRGX0012             09/01/03       $192,000   08/31/04

            Supplement 1         09/01/03       $192,000   08/31/05

                       Total                    $532,714

       Source: Office of Justice Programs



Implementing the Grant Program Objectives

      Based on the Oglala Sioux Tribe’s grant application and award
documentation, we identified the following objectives for Grant
No. 2002VRGX0011, which we determined were consistent with the overall
goal of the OVC tribal victim assistance program.

  •   Assist family members of fatal DWI and DUI crashes in completing
      crime victim compensation applications and provide financial
      assistance for funeral expenses.

  •   Provide transportation to safe areas for victims of violent crime and
      child abuse.

  •   Hire victim advocates to focus on victims of gang violence.

      Under Grant No. 2003VRGX0012, we identified five additional
objectives, which we also determined were consistent with the overall goal
of the OVC tribal victim assistance program. They were to:

  •   provide counseling;

  •   provide information and referrals;

  •   provide emergency services;

  •   accompany victims to court; and

  •   assist victims in obtaining victim compensation.




                                       – 34 –
      We found that timelines and measures were not established for
achieving grant objectives. Tribal grantee officials stated that it was difficult
to establish timelines because of the crisis-oriented nature of the victim
assistance program. Officials stated that although timelines were not
established, the program was constantly striving to establish and
re-establish working relationships with the tribal police, the tribal
prosecutor’s office, and social services, to expand and improve the services
provided to crime victims throughout the reservation.

      Despite the fact that measures and timelines had not been
established, we found that the Oglala Sioux Tribe generally accomplished the
objectives outlined for its victim assistance grant. However, at the time of
our review, none of the hired advocates focused specifically on gang
violence. Rather, each advocate provided services to all victims of violent
crimes.


Reporting Progress Accurately

      We found that the Oglala Sioux Tribe generally submitted required
progress reports with the required information. However, the final progress
report for Grant No. 2002VRGX0011 was not submitted, as shown in
Table 6.

       TABLE 6.      PROGRESS REPORTS SUBMITTED FOR GRANT
                     NOS. 2002VRGX0011 AND 2003VRGX0012
                     AWARDED TO THE OGLALA SIOUX TRIBE
                                   REPORT DUE    DATE REPORT
             REPORT PERIOD            DATE        SUBMITTED      DAYS LATE
         Grant No. 2002VRGX0011

          07/01/02 – 12/31/02       01/30/03       02/26/03         27

          01/01/03 – 06/30/03       07/30/03       07/15/03          -

          07/01/03 – 08/31/03       12/29/03     Not Submitted

         Grant No. 2003VRGX0012

          07/01/03 – 12/31/03       01/30/04      Not Dated

          01/01/04 – 06/30/04       07/30/04      Not Dated

          07/01/04 – 12/31/04       01/30/05      Not Dated

        Source: Office of Justice Programs

      Additionally, we found that progress reports did not accurately reflect
victim assistance grant program activity. The statistical information


                                        – 35 –
reported in the progress reports submitted to the OVC could not be verified
to source information. Tribal grantee officials could not provide an
explanation as to why the statistical information did not match what was
reported.


Statistical Data Supporting Program Performance

      Although statistical data was not reported accurately, the Oglala Sioux
Tribe did maintain data related to the number of victims served. As a result,
we were able to generate statistical information and use the data to assess
the effectiveness of its victim assistance program.

      The tribe received its victim assistance grant in 2002; therefore, we
used 2001 statistical data as the baseline for the grant. We found that the
number of victims served did not increase as a result of the OVC tribal victim
assistance funding.

CHART 2. NUMBER OF VICTIMS SERVED THROUGH THE OGLALA
         SIOUX TRIBES’ VICTIM ASSISTANCE PROGRAM

                                NUMBER OF VICTIMS SERVED


   450
                             390
   400

   350

   300

   250

   200                                                     166
             156                            154
   150

   100                                                                 62
    50

     0
             2001            2002           2003           2004   Jan - Apr 2005


Source: Oglala Sioux Tribe

       As shown in Chart 2 (excluding 2002), the number of victims served
remained relatively constant between 2001 and 2004, only increasing by 6
percent between the year prior to the grant (2001) and the last full year of
the grant (2004). We also found that the significant increase in the number
of victims served during 2002 did not accurately reflect program activity and
the number of victims served decreased between 2001 and 2003. As a


                                       – 36 –
result, based on the number of victims served, the Oglala Sioux Tribe did not
effectively achieve the objectives of its victim assistance grant. The current
program director has only been in place since December 2004, and was
unable to comment on program operations prior to that time. However, she
stated that the tribe’s victim assistance program is constantly working to re-
establish relationships with the different “players,” such as Cangleska, Inc.,
the tribal police, the tribal prosecutor’s office, and social services. 24

      As stated previously, the significant increase in the number of victims
served during 2002 did not accurately reflect program activity. That data
was based on the number of police reports received by the victim assistance
program rather than the number of victims served. Tribal grantee officials
stated that the program director at that time created a victim file for each
police report received regardless of whether or not services were provided.
We reviewed a sample of victim files for 2002, and found that generally,
they only contained a police report with no mention of any services
provided.


Victim Assistance Program Achievements

       We selected a sample of case files that the Oglala Sioux Tribe
maintained to document the services provided to crime victims. We found
that the tribe’s victim assistance program provided a wide variety of
comprehensive services to victims that bridged the gap between the criminal
justice system and victims. Specifically, during our review of case files, we
identified the following services provided to victims:

   •   Personal Advocacy – Short-term crisis counseling was designed to
       lessen the impact of victimization. Victim advocates provided
       in-person crisis counseling to crime victims, assessed victims’ needs,
       and provided emergency food and clothing to those victims in extreme
       crisis.

   •   Assistance in Filing a Crime Victim Compensation Application – Victim
       advocates provided assistance in completing crime victim
       compensation applications.

   •   Information and Referrals – Victim advocates provided victims with
       information and referrals to Cangleska, Inc.
       24
           Cangleska, Inc., is a private, non-profit, tribally charted organization on the Pine
Ridge Reservation that provides comprehensive domestic violence prevention and
intervention programs designed to provide advocacy to women who were battered and their
children, and to hold offenders accountable.


                                           – 37 –
   •   Criminal Justice Support - These services were designed to support
       victims during the criminal justice process. Victim advocates referred
       victims to law enforcement agencies, assisted victims in reporting
       crimes, and accompanied them to court hearings.

   •   Assistance with Personal Protection Orders – Victim advocates
       provided assistance to victims in completing the necessary paperwork
       to obtain a personal protection order.

   •   Transportation – Victim advocates provided transportation to and from
       law enforcement agencies, court hearings, and service providers.

       We provided questionnaires to six victims, who received services from
the Oglala Sioux Tribe’s victim assistance program, and who indicated a
willingness to be contacted. We asked them to identify what services were
received and whether or not they were effective in meeting victims’ needs.
Based on the six responses, victims were generally satisfied with the
services provided and felt that they were effective in meeting their needs.
The services identified by the victims included: (1) transportation to court
hearings, (2) support during court hearings, (3) personal advocacy,
(4) assistance paying utility bills, and (5) provision of food and other
necessities.

      Based on our review of the services provided to victims and the
responses to the recipient questionnaires, the Oglala Sioux Tribe’s victim
assistance program is providing needed services to crime victims. However,
the number of victims served did not increase as a result of the grant
program.


Collaborating with Criminal Justice Agencies and Service Providers

      According to the Oglala Sioux Tribe officials, the victim assistance
program strived to re-establish working relationships with many different
agencies, both within and outside the tribal community. These agencies
included, but were not limited to those listed in the chart on the following
page:




                                    – 38 –
                COLLABORATING AGENCIES IDENTIFIED BY THE TRIBAL GRANTEE
   •   Federal Bureau of Investigation         •   Court Appointed Special Advocates

   •   U.S. Attorneys’ Office                  •   Cangleska, Inc.

   •   Oglala Sioux Tribe Public Safety        •   Casey Family Program

   •   Oglala Sioux Tribe Court System

Source: Oglala Sioux Tribe

      We conducted interviews with representatives from tribal law
enforcement, the tribal attorney’s office, and Cangleska, Inc. From these
interviews, we determined that each of the collaborating agencies believed
that the Oglala Sioux Tribe’s victim assistance program was not effective in
meeting victims’ needs. Specifically, representatives from the tribal
collaborating agencies made the following statements:

   •   The interaction with the victim assistance program has never been
       consistent because of changing directors.

   •   I worked for the public safety for 2 years and was unaware of the
       tribal victim assistance program until 1 year ago, when a public safety
       officer was involved in a domestic violence event, and went through
       the tribal victim assistance program. The interaction between public
       safety and the victim assistance program is minimal.

       Additionally, we provided questionnaires to representatives from the
FBI and USAO with whom officials from the Oglala Sioux Tribe victim
assistance program collaborated. From these questionnaires, we determined
that both agencies believed that the tribe’s victim assistance program was
effective in meeting victims’ needs. Representatives from the FBI and USAO
made the following statements about the Oglala Sioux Tribe’s victim
assistance program:

   •   The Victim Assistance in Indian Country program worked with victims
       before trial; and on trial day. They picked up the victims and brought
       them to trial, stayed and supported them in the evening and brought
       them back the next day.

   •   The Oglala Sioux Tribe victim assistance program is willing to provide
       whatever type of transportation assistance the victim may need. I
       value the assistance I receive from their office.

       Based on the responses to our interviews with representatives from
tribal law enforcement, the tribal attorney’s office, and Cangleska, Inc., and


                                          – 39 –
questionnaires with collaborating agencies, we found that the Oglala Sioux
Tribe’s victim assistance program was somewhat effective in meeting victim
needs. The FBI and USAO agreed that the victim assistance program
provided much-needed victim services. However, the tribal collaborating
agencies also believed that because of the constant change in program
leadership, the tribe’s victim assistance program was not effective in
bridging the gap between the criminal justice system and the service
providers.


Sustaining the Victim Assistance Program

     According to its initial application, the Oglala Sioux Tribe proposed
several plans to sustain its victim assistance program, including:

   •   fining all tribal members who were found guilty of a crime;

   •   applying for additional grants; and

   •   withdrawing a fee from each employee’s biweekly salary.

      At the time of our review, the tribe had not implemented any of the
proposed plans listed above. Tribal grantee officials stated that they were
currently trying to identify other long-term grants to sustain their victim
assistance program when the OVC tribal victim assistance program funding
expired.


Conclusion

       Based on the results of our review, the Oglala Sioux Tribe did not
effectively implement a comprehensive victim assistance program that
bridged the gap between the criminal justice system and victims. We found
that:

   •   the tribe did not accurately report performance information in its
       progress reports;

   •   the program did not demonstrate an increase in the number of victims
       served;

   •   the program was never fully implemented due to frequent changes in
       program management;



                                     – 40 –
  •   the program was not considered effective by tribal collaborating
      agencies; and

  •   the tribe did not establish a plan to sustain the program after the OVC
      grant funding expired.

      Although we found that the victim assistance program implemented by
the Oglala Sioux Tribe was generally not effective, we noted that the grant
program objectives were generally achieved. Based on the questionnaires
provided to victims, we found that they believed that the tribe’s victim
assistance program was effective in meeting their specific needs.




                                   – 41 –
IV.   MISSISSIPPI BAND OF CHOCTAW INDIANS

      The Mississippi Band of Choctaw Indians did not effectively
      implement a comprehensive victim assistance program that
      bridged the gap between the criminal justice system and victims.
      Specifically, we found that the Mississippi Band of Choctaw
      Indians: (1) only partially achieved the grant objectives outlined
      for its victim assistance grant; (2) did not include the all-
      required performance data in its progress reports, and did not
      accurately report the performance information that was
      included; (3) focused solely on victims of non-major domestic
      crimes, of which the majority of victims contacted declined
      services; (4) did not maintain data on the number of victims
      served; (5) reviewed 4 percent fewer police reports in 2004,
      than in 2000, and (6) did not establish a plan to sustain their
      victim assistance program after the OVC victim assistance grant
      funding expired. Based on interviews and questionnaires with
      representatives from collaborating agencies, we found that the
      collaborating agencies believed that the Mississippi Band of
      Choctaw Indians victim assistance program was effective,
      though limited, in meeting victims’ needs. Based on
      questionnaires provided to victims, we also noted that victims
      who accepted services, believed that the program was effective
      in meeting their specific needs.


       The Mississippi Band of Choctaw Indians is a federally recognized
Indian Tribe located near the city of Philadelphia, Mississippi. The tribe has
more than 8,100 enrolled members, with 6,500 living on or near the
reservation. The Choctaw Reservation consists of eight scattered, isolated,
rural communities in east central Mississippi.

       The Mississippi Band of Choctaw Indians indicated in its grant
application that many of the Choctaw people live in homes characterized by
substance abuse, verbal and physical aggression, sexual abuse, mental
illness, poor marital relations, and poor discipline habits. The application
further stated that social problems of this nature inevitably manifest into a
great deal of criminal activity, with domestic violence being one of the most
common crimes committed.

      As shown in Table 7, the Mississippi Band of Choctaw Indians received
two victim assistance grants, including three supplemental awards, totaling
$293,050.



                                    – 42 –
        TABLE 7. VICTIM ASSISTANCE PROGRAM GRANTS
                 AWARDED TO THE MISSISSIPPI BAND OF
                 CHOCTAW INDIANS
                                AWARD START       AWARD     AWARD END
                GRANT              DATE           AMOUNT      DATE
         1999VRGX0011             08/01/99        $55,633   07/31/00

             Supplement 1         08/01/99        $55,633   10/31/02

             Supplement 2         08/01/99        $55,633   10/31/03

         2003VRGX0003             09/01/03        $63,076   08/31/04

             Supplement 1         09/01/03        $63,075   08/31/05

                        Total                    $293,050

        Source: Office of Justice Programs



Implementing the Grant Program Objectives

       According to the grant applications of the Mississippi Band of Choctaw
Indians, the goal of the victim assistance program was to offer a full-service
program to victims of any crime, with particular emphasis on the safety,
health, and autonomy of domestic violence, and sexual assault victims and
their dependents. Tribal grantee officials stated the victim assistance
program originally focused on providing assistance to tribal victims of all
types of crimes. However, tribal law enforcement officials felt it would be
better if they, rather than the program, addressed the needs of victims of
violent crime so that the victim assistance program would not interfere with
any on-going investigations. As a result, the tribe’s program currently
focuses on victims of non-major domestic crimes. We believe this is not the
most effective use of limited OVC tribal victim assistance funding because
domestic violence funding is available through other DOJ programs, such as
STOP Violence Against Indian Women Discretionary Grant Program.

      We determined from the Mississippi Band of Choctaw Indians’
application and award documentation for Grant No. 1999VRGX0011, that the
objectives of its initial victim assistance grant were to:

   •   Develop an accurate data system to accumulate statistical data about
       victims and victim services in the Choctaw community, providing a
       baseline indicator for services and progress made in assisting victims.

   •   Develop and implement community outreach services, such as
       counseling, advocate services, and assistance to victims, to each tribal
       community at least once per month.


                                        – 43 –
   •   Increase by at least 25 percent, the utilization of services within the
       first six months, as compared to first-month baseline data.

   •   Coordinate victim services and community outreach services by
       establishing and developing strong working relationships with tribal
       and non-tribal community agencies.

      Additionally, we determined from the Mississippi Band of Choctaw
Indians’ application and award documentation for Grant No. 2003VRGX0003,
that the objectives of the subsequent grant were to:

   •   Increase victim utilization of the services provided by the victim
       assistance program and to develop more efficient methods of assisting
       victims in breaking the cycle of abuse, enabling them to become
       self-sufficient individuals.

   •   Increase offender accountability through successful prosecutions and
       the successful litigation and enforcement of civil protection orders.

   •   Provide training for court personnel, the judiciary, and law
       enforcement, as well as provide in-service training to all tribal
       agencies as necessary.

   •   Continue the development and implementation of community outreach
       services, such as counseling, advocate services, education, and
       community awareness activities, to each tribal community through
       hands-on community involvement.

   •   Promote a multidisciplinary, collaborative approach to domestic
       violence and sexual assault victimization.

      These objectives were consistent with the overall goal of the OVC tribal
victim assistance program. However, we found that the Mississippi Band of
Choctaw Indians only partially achieved the objectives of its own victim
assistance program:

   •   A system to accumulate statistical data was developed; however, we
       found that the system was inadequate and did not collect all the
       information required under the victim assistance program. For
       example, the tribe did not collect information on the number of victims
       served and the types of victimization. Instead, they maintained data
       on the number of police reports reviewed, which does not provide an
       adequate basis for measuring effectiveness.


                                     – 44 –
   •   Community outreach services, such as counseling, advocate services,
       and assistance to victims, were developed and implemented.
       However, instead of providing these services to each of the eight
       communities once a month as indicated in its grant application, the
       tribe visited only one community per month and rotated visits through
       the eight communities.

       We were unable to assess whether the Mississippi Band of Choctaw
Indians achieved a 25-percent increase in the utilization of services within
the first 6 months of the grant, because it did not maintain sufficient
baseline data prior to or after receiving the initial grant in 1999. In addition,
we were unable to assess whether the tribe increased victim utilization of
the services because, as stated previously, they did not collect information
on the number of victims served. We also found that the client files were
not organized in a manner in which services provided could be readily
identified. Victims had multiple files depending on the type and quantity of
services provided, and therefore there was no single record documenting the
assistance provided.

      The Mississippi Band of Choctaw Indians also did not establish
measures to track progress toward achieving grant objectives. However, as
shown in Table 8, the tribe did establish timelines for achieving grant
objectives for the first year of Grant No. 1999VRGX0011.

TABLE 8.     TIMELINES FOR ACHIEVING PROGRAM OBJECTIVES
             DURING THE FIRST YEAR OF GRANT NO. 1999VRGX0011
                                           MONTHS IN PROJECT PERIOD
    TASK TO BE PERFORMED          1   2   3  4  5   6  7   8   9 10      11   12
Coordinate program services
Develop referral procedures
Collect data on training
Establish a baseline indicator
Provide direct services
Collect data on all victims
Enhance working relationships
Attend conferences and
   workshops
Participate in tribal events
Coordinate sensitivity training
Develop community services
Provide community services
Assist with code proposals




                                      – 45 –
                                                 MONTHS IN PROJECT PERIOD
    TASK TO BE PERFORMED                1   2   3  4  5   6  7   8   9 10           11   12
 Perform 6-month evaluation
Source: Grant application for Grant No. 1999VRGX0011

      Additionally, as shown in Table 9, the Mississippi Band of Choctaw
Indians also established timelines for achieving grant objectives for Grant
No. 2003VRGX0003.

TABLE 9. TIMELINES FOR ACHIEVING PROGRAM OBJECTIVES
         DURING THE FIRST YEAR OF GRANT NO. 2003VRGX0003
                                                 MONTHS IN PROJECT PERIOD
    TASK TO BE PERFORMED 25             1   2   3  4  5   6  7   8   9 10           11   12
 Provide direct services
 Meet with Choctaw Housing
    Authority to develop protocols
    for getting repairs as quickly as
    possible
 Meet quarterly with Choctaw
    Housing Authority to review
    and resolve problems
 Meet quarterly with Tribal
    Prosecutor to discuss progress
    of cases and problems leading
    to case dismissals
 Provide training for law
    enforcement and judiciary
 Provide in-service training
 Implement community awareness
    activities
 Develop and disseminate printed
    materials in communities
 Develop volunteer recruitment
    plan
 Actively recruit volunteers
 Organize volunteer base into
    community activist groups
 Meet quarterly with volunteer
    groups
 Quarterly statistical evaluations
 Bi-annual statistical comparison
Source: Grant application for Grant No. 2003VRGX0003




       25
          In its grant application, the Mississippi Band of Choctaw Indians proposed
continuing the majority of the activities in the second and third years of the grant.


                                            – 46 –
Reporting Progress Accurately

      We found that Mississippi Band of Choctaw Indians did not provide
specific performance information in progress reports, as the OVC required.
Specifically, progress reports did not include information on the number of
victims served or the types of victimization. Instead, the tribe reported and
maintained data on the number of police reports reviewed, which does not
provide an adequate basis for measuring program effectiveness.
Additionally, progress reports did not accurately reflect the tribe’s victim
assistance grant program activity.

      Based on the results of our review, we found that the Mississippi Band
of Choctaw Indians did not submit or did not submit in a timely manner
50 percent (6 of 12) of the required progress reports under its victim
assistance program, as shown in Table 10.

       TABLE 10.      PROGRESS REPORTS SUBMITTED FOR GRANT
                      NOS. 1999VRGX0011 AND 2003VRGX0003
                      AWARDED TO THE MISSISSIPPI BAND OF
                      CHOCTAW INDIANS
                                  REPORT DUE    DATE REPORT
            REPORT PERIOD            DATE        SUBMITTED      DAYS LATE
        Grant No. 1999VRGX0011

         07/01/99 – 12/31/99        01/30/99    Not Submitted

         01/01/00 – 06/30/00        07/30/00    Not Submitted

         07/01/00 – 12/31/00        01/30/01    Not Submitted

         01/01/01 – 06/30/01        07/30/01    Not Submitted

         07/01/01 – 12/31/01        01/30/02      05/16/02        106

         01/01/02 – 06/30/02        07/30/02      07/25/02          -

         07/01/02 – 12/31/02        01/30/03      01/28/03          -

         01/01/03 – 06/30/03        07/30/03      07/21/03          -

         07/01/03 – 08/31/03        12/29/03    Not Submitted

        Grant No. 2003VRGX0003

         07/01/03 – 12/31/03        01/30/04      01/28/04          -

         01/01/04 – 06/30/04        07/30/04     Not Dated

         07/01/04 – 12/31/04        01/30/05     Not Dated

       Source: Office of Justice Programs




                                       – 47 –
Statistical Data Supporting Program Performance

       The statistical information reported in the progress reports submitted
to the OVC could not be verified to source information. Tribal grantee
officials could not provide an explanation as to why the statistics did not
match what was reported. We used the information, however, to generate
statistical data for the grant, although data on the number of police reports
reviewed was maintained, rather than data on the number of victims served.
We found that the tribe did not maintain baseline data prior to receiving its
victim assistance grant in 1999, and as a result, we could not fully assess
the impact of its victim assistance program. However, based on our analysis
of available data, we found that the number of police reports reviewed
fluctuated during the award period.


CHART 3. NUMBER OF POLICE REPORTS REVIEWED THROUGH THE
         MISSISSIPPI BAND OF CHOCTAW INDIANS’ VICTIM
         ASSISTANCE PROGRAM

                           NUMBER OF POLICE REPORTS REVIEWED


   120
                                                    103
   100                    92
                                       85                                      88
                                                                  78
    80


    60
              43
    40


    20


     0
              1999       2000         2001          2002         2003         2004


Source: Mississippi Band of Choctaw Indians

       As shown in Chart 3, the number of police reports reviewed fluctuated
between 2000 and 2004, decreasing by 4 percent from 2000 – the first full
year of the grant program – through 2004.26 Based on the number of police
reports reviewed, we believe the Mississippi Band of Choctaw Indians did not
effectively achieve the objectives of the victim assistance grant.

         26
         The grant award start date was August 1, 1999; therefore, the 1999 data was not
comparable to subsequent years of the grant program.



                                        – 48 –
Victim Assistance Program Achievements

      The Mississippi Band of Choctaw Indians did not report or maintain
data on the number of victims served, but instead reported and maintained
data on the number of police reports reviewed. Generally victims were
contacted (which could be construed as a service) to determine if victim
assistance services were required. However, the majority of victims
contacted (about 95 percent in 2004) declined additional services.

       For those victims contacted who indicated a need for services, we
selected a sample of case files and found that the files were not organized in
a manner in which services provided could be readily identified. We found
that victims had multiple files depending on the type and quantity of
services provided. Therefore, there was no single record documenting the
assistance provided. Based on our review, we found that the Mississippi
Band of Choctaw Indians provided a variety of services to victims of
non-major domestic crimes that bridged the gap between the criminal
justice system and victims. Specifically, during our review of case files, we
identified the following services provided to crime victims:

   •   Information and Referrals – Victim advocates provided victims with
       information and referrals to service agents that furnished counseling,
       therapy, shelter, and legal aid.

   •   Assistance with court documents – Victim advocates provided victims
       assistance by explaining and serving documents, including subpoenas,
       summons, and warrants.

   •   Assistance with court processes – Victim advocates provided victims
       assistance in filing for separation, divorce, child custody, or obtaining
       child support.

   •   Financial assistance – The victim assistance program provided victims
       with financial assistance for water and gas bills.

   •   Housing assistance – Victim advocates provided victims assistance in
       locating housing, making shelter arrangements, and contacting family
       and friends to locate a safe place for victims to stay.

   •   Batterer’s Re-education program for domestic violence offenders – One
       victim advocate instructed the 26-week course on Batterer
       Re-education.




                                      – 49 –
       In addition the Mississippi Band of Choctaw Indians’ victim assistance
program provided the following services that were not included in our case
file review:

   •   Transportation – Victim advocates provided victims with transportation
       to shelters, safe homes, legal aid meetings, court appointments, and
       counseling sessions. Additionally, transportation vehicles were used
       by advocates to visit victims at their homes, which allowed meetings
       to occur in a comfortable setting.

   •   Translation – Victim advocates provided translation for victims who
       spoke only Choctaw.

   •   Assistance with Employment – Victim advocates provided assistance to
       victims in locating employment, or assisted them in locating
       employment so they could continue separation from their abuser. For
       those victims who were already employed, advocates contacted
       employers to notify them why victims were absent from work.

   •   Candlelight Vigil – Victim advocates recruited volunteers to assist in
       providing candlelight vigils for victims in the eight communities on the
       Choctaw reservation.

       We provided questionnaires to 12 victims, who received services from
the Mississippi Band of Choctaw Indians’ victim assistance program, and who
indicated a willingness to be contacted. They were asked to identify what
services were received and whether or not the services were effective in
meeting their needs. Based on the two responses we received, victims were
generally satisfied with the services provided and felt that they were
effective in meeting victims’ needs. Victims stated that they received
assistance in obtaining protective orders, counseling, and information about
domestic violence.

      Based on our review of the services provided to victims and the limited
responses to the recipient questionnaires, the Mississippi Band of Choctaw
Indians’ victim assistance program provided needed services to victims of
non-major domestic crimes. However, the majority of victims contacted
declined services.


Collaborating with Criminal Justice Agencies and Service Providers

      According to tribal grantee officials, the Mississippi Band of Choctaw
Indians’ victim assistance program collaborated with many different


                                     – 50 –
agencies, both within and outside the tribal community. These agencies
included, but were not limited to those listed in the following chart:

                       COLLABORATING AGENCIES IDENTIFIED BY THE GRANTEE
       •    Tribal law enforcement                     •   U.S. Attorneys’ Office
       •    Tribal social services                     •   Federal Bureau of Investigation
       •    Tribal health services                     •   Elderly Nutrition Program
       •    Child Advocacy Center                      •   Counselors and therapists
       •    Care Lodge Shelter in Meridian,
            Mississippi
Source: Mississippi Band of Choctaw Indians

      We conducted interviews with representatives from tribal law
enforcement, the tribal courts, and tribal social services. From these
interviews, we determined that the collaborating agencies believed that the
Mississippi Band of Choctaw Indians’ victim assistance program was
somewhat effective, although limited, in meeting victims’ needs.
Specifically, representatives from the tribal collaborating agencies made the
following statements:

   •       The program is effective in assisting victims in the short-term by
           providing them with a safe place to go and recommending they go to
           another family member’s home in another community. However, the
           collaborating official was unsure if the Family Violence and Victim’s
           Services program is effective in assisting victims’ needs in the
           long-term.

   •       The program provides counseling services, an attorney to assist with
           protection orders, and will inform victims as to what restraining orders
           and protection orders are. Additionally, the program informs the
           public about domestic violence, provides additional counseling, and
           increases awareness in the community. However, the collaborating
           official also stated that there are some problems in clarifying which
           victims will be served and that they do not handle all crimes, mainly
           domestic violence.

   •       The program meets the short-term needs of victims by assisting in
           obtaining protection orders. The program is effective in meeting the
           long-term needs of victims by providing counseling services and by
           assisting victims in obtaining a continuance protection order.
           However, the collaborating official also stated that the program should
           do additional follow-up on protection orders, because often an
           individual will get a protection order, but will return to the abuser.


                                              – 51 –
       We also provided questionnaires to representatives from the FBI and
USAO, and determined that neither agency was able to provide feedback on
the tribe’s victim assistance program. This was due to the fact that the FBI
and USAO are only responsible for major crimes committed on tribal lands,
while the Mississippi Band of Choctaw Indians’ victim assistance program
focuses on victims of non-major domestic crimes.

       Based on the responses to our interviews with representatives from
tribal law enforcement, the tribal courts, and social services, and
questionnaires with collaborating agencies, we found that the Mississippi
Band of Choctaw Indians’ victim assistance program was somewhat effective
in meeting victim needs. However, the collaborating agencies considered
the victim assistance program to be limited, because it focused on victims of
non-major domestic crimes.


Sustaining the Victim Assistance Program

       The Mississippi Band of Choctaw Indians did not provide a plan to
sustain its victim assistance program when the program funding expired.
However, according to tribal council officials, they are very supportive of the
victim assistance program and currently fund a portion of it. Tribal grantee
officials also stated that they are actively seeking additional grant funding to
expand and improve the program and will continue to make requests to the
tribal council for continued support, especially in the event that OVC tribal
victim assistance program funding is not awarded in the future.


Conclusion

      Based on the results of our review, the Mississippi Band of Choctaw
Indians did not effectively implement a comprehensive program that bridged
the gap between the criminal justice system and victims. We found that:

   •   the tribe only partially achieved the grant objectives outlined for its
       victim assistance grant;

   •   the tribe did not include the all-required performance data in its
       progress reports, and did not accurately report the performance
       information that was included;

   •   the program focused solely on victims of non-major domestic crimes,
       of which the majority of victims contacted declined services;


                                      – 52 –
•   the tribe did not maintain data on the number of victims served;
    instead it reported on the number of police reports reviewed, which
    does not provide an adequate basis for measuring effectiveness;

•   the number police reports reviewed decreased by 4 percent from 2000
    to 2004;

•   the program was generally considered effective in meeting the specific
    needs of victims of non-major domestic crimes by the victims who
    requested services and the tribal collaborating agencies; however, the
    program was considered to be limited; and

•   the tribe had not established a plan to sustain its victim assistance
    program when the victim assistance grant funding expired.




                                  – 53 –
V.   LUMMI INDIAN NATION

     The Lummi Indian Nation effectively implemented a
     comprehensive victim assistance program that bridged the gap
     between the criminal justice system and victims. Specifically,
     we found that the Lummi Indian Nation: (1) effectively
     accomplished the goals outlined for its victim assistance grant,
     (2) accurately reported performance information included in its
     progress reports, (3) increased the number of victims served by
     51 percent during the first year of the victim assistance grant
     and 716 percent over the life of the grant, and (4) provided a
     wide variety of comprehensive services to victims. Based on
     questionnaires provided to victims, we found that they believed
     that the Lummi Indian Nation’s victim assistance program was
     effective in meeting their needs. Additionally, based on
     interviews and questionnaires with representatives from
     collaborating agencies, we found that they believed that the
     tribe’s victim assistance program also was effective in meeting
     victims’ needs. Although we found that the victim assistance
     program implemented by the Lummi Indian Nation was effective,
     we noted that the statistical data included in the progress
     reports included all grant programs administered by the Lummi
     Indian Nation’s victim assistance program. Additionally, tribal
     grantee officials could not provide a plan to sustain the victim
     assistance program when the OVC program funding expired.

      The Lummi Indian Nation is a federally recognized Indian tribe located
within Whatcom County, Washington, approximately 5 miles west of the city
of Bellingham and 20 miles south of the Canadian border. The tribe has
approximately 4,259 enrolled members, with 2,564 living within the Lummi
Indian Reservation. The Lummi Indian Reservation consists of a land base
containing 12,504 acres of upland area and 8,000 acres of tideland area.

      According to the grant application submitted for Grant
No. 1999VRGX0012, the Lummi Indian Nation proposed to address the
safety, advocacy, and healing needs of crime victims, and to build a
community consensus more resistant to criminal abuse. The tribe’s victim
assistance program was established in 1990 with a state VOCA grant to
provide an ongoing and comprehensive network of victim services to a
variety of crimes occurring within the reservation, including child
abuse; assault; DWI and DUI; robbery; and sexual abuse and assault.

      As shown in Table 11, the Lummi Indian Nation received three victim
assistance grants, including three supplemental awards, totaling $481,752.


                                   – 54 –
        TABLE 11.        VICTIM ASSISTANCE PROGRAM GRANTS
                         AWARDED TO THE LUMMI INDIAN NATION
                                   AWARD START           AWARD          AWARD END
                 GRANT                DATE               AMOUNT           DATE
          1999VRGX0012               08/01/99            $60,000         07/31/00

              Supplement 1           08/01/99            $60,000         07/31/01

          2001VRGX0001               09/30/01            $66,000         09/30/02

              Supplement 1           09/30/01            $66,000         09/30/03

          2003VRGX0007               09/01/03           $115,221         08/31/04

              Supplement 1           09/01/03           $114,531         08/31/05

                           Total                        $481,752

        Source: Office of Justice Programs



Implementing the Grant Program Objectives

      Based on the Lummi Indian Nations’ grant application and award
documentation, we identified the following objectives for Grant
Nos. 1999VRGX0012 and 2001VRGX0001, which we determined were
consistent with the overall goal of the OVC tribal victim assistance program,
as shown in Table 12.

TABLE 12. PROGRAM OBJECTIVES AND MEASURES
                PROGRAM OBJECTIVE                                    MEASURE
 •   Provide direct crisis intervention,            •    The number of victims that received
     information, and referral and advocacy              services.
     services to all identified crime victims on
     the Lummi Indian Reservation and to all
     other crime victims seeking assistance.
 •   Enhance client access to high quality          •    The number of referrals to service
     medical care for physical injuries and              agencies provided to victims.
     ensure that appropriate counseling is
     available to help heal the trauma of the
     victimization.
 •   Provide professional training opportunities    •    The number of training sessions
     for police, educators, help-line volunteers,        provided, including the number of
     and other care providers who have direct            individuals trained.
     contact with crime victims.
 •   Continue operating the Lummi 24-hour           •    The number of help-line calls during
     help line and involve more volunteers.              the grant period.
Source: Grant application for Grant Nos. 1999VRGX0012 and 2001VRGX0001




                                            – 55 –
       The Lummi Indian Nation also proposed to continue the objectives
listed in its subsequent grant, No. 2001VRGX0001. According to the grant
application for Grant No. 2001VRGX0001, each objective would be
implemented over the life of the grant, and so, specific timelines were not
established.

      We also identified 12 additional objectives from the Lummi Indian
Nations’ application and award documentation for Grant No. 2003VRGX0012,
which were consistent with the overall goal of the OVC tribal victim
assistance program. They were to:

  •   purchase a computer and pay telephone services for the Domestic
      Violence Shelter;

  •   fund key personnel, including a victim advocate, administrative
      assistant, and program assistant/advocate;

  •   provide funding for transportation services;

  •   provide traditional healing and healing materials;

  •   provide emergency food and clothing;.

  •   provide services that offered an immediate measure of safety to crime
      victims, such as boarding up broken windows and replacing or
      repairing locks;

  •   develop tribal codes and educational materials;

  •   collaborate with law enforcement and other service providers to
      improve services;

  •   develop tribal policies to improve services offered to crime victims;

  •   improve grant reporting;

  •   fund training and travel for victim advocates; and

  •   provide quality comprehensive domestic violence services.

     Despite the fact that timelines were not established for Grant Nos.
1999VRGX0012 and 2001VRGX0001, we found that the Lummi Indian Nation
generally implemented the objectives of its victim assistance program.



                                    – 56 –
However, although the tribe successfully continued operating a 24-hour help
line, victim advocates generally manned it rather than volunteers.


Reporting Progress Accurately

       As shown in Table 13, we found that the Lummi Indian Nation did not
submit or did not submit in a timely manner 62 percent (8 of 13) of the
required progress reports under its victim assistance program. For Grant
No. 2003VRGX0007, we were unable to determine whether three reports
were submitted in a timely manner, because the reports were not dated.
However, we found that the progress reports submitted accurately reflected
the tribe’s victim assistance grant program activity.

       TABLE 13. ANALYSIS OF PROGRESS REPORTS
                                  REPORT DUE    DATE REPORT
            REPORT PERIOD            DATE        SUBMITTED      DAYS LATE
        Grant No. 1999VRGX0012

        08/01/99 – 12/31/99         01/30/99    Not Submitted

        01/01/00 – 06/30/00         07/30/00    Not Submitted

        07/01/00 – 12/31/00         01/30/01    Not Submitted

        01/01/01 – 06/30/01         07/30/01    Not Submitted

        07/01/01 – 07/31/01         11/28/01    Not Submitted

        Grant No. 2001VRGX0001

        07/01/01 – 12/31/01         01/30/02    Not Submitted

        01/01/02 – 06/30/02         07/30/02      08/16/02         17

        07/01/02 – 12/31/02         01/30/03    Not Submitted

        01/01/03 – 06/30/03         07/30/03      07/25/03          -

        07/01/03 – 09/30/03         01/28/04    Not Submitted

        Grant No. 2003VRGX0007

        07/01/03 – 12/31/03         01/30/04     Not Dated

        01/01/04 – 06/30/04         07/30/03     Not Dated

        07/01/04 – 12/31/04         01/30/05     Not Dated

       Source: Office of Justice Programs




                                       – 57 –
Statistical Data Supporting Program Performance

      The Lummi Indian Nation received its victim assistance grant in 1999;
therefore, we used 1998 statistical data as the baseline for the grant. As
stated above, we found that the progress reports submitted by the tribe
accurately reflected actual activity under the victim assistance program. As
a result, we were able to generate statistical information on the number of
victims served and use our data to assess the effectiveness of the program.

       We found that the number of victims served generally increased each
year of the grant. Our analysis revealed that the victim assistance program
demonstrated an increase in services and activities as a result of the OVC
tribal victim assistance grant funding received. Tribal grantee officials stated
that it would be possible to track the number of victims served by each
funded victim advocate position under the program. But since the grant
program only funded a portion of some victim advocate positions, this would
still not accurately reflect the number of victims served.

       We also found that the statistical information reported in the progress
reports submitted to the OVC could generally be verified to source
documentation, with no material differences. Tribal grantee officials stated
that these immaterial differences were due to timing differences in entering
the information into the tribe’s computer system. The differences we noted
appear to support this statement. For example, statistical information in the
progress report was generally lower than that included in the victim
assistance database, indicating that information was entered into the system
after the progress report was prepared.

       Statistics reported for the victim assistance program included data for
all grant programs administered by the Lummi Indian Nation. During
FYs 2000 through 2004, the tribe received $1,872,559 in awards through
the following DOJ grant programs, which include a component of victim
assistance: 27

   •   STOP Violence Against Indian Women Discretionary Grant Program;

   •   Children's Justice Act Partnerships for Indian Communities Program;

   •   Legal Assistance for Victims Grant Program; and the



       27
         See Finding I of this report for additional background information related to these
programs.



                                          – 58 –
   •       Rural Domestic Violence and Child Victimization Enforcement Grant
           Program.

CHART 4. NUMBER OF VICTIMS SERVED THROUGH THE LUMMI
         INDIAN NATION’S VICTIM ASSISTANCE PROGRAM

                                  NUMBER OF VICTIMS SERVED


   350
                                                                           302
   300
                                                                 256
   250
                                                      216
   200
                                           143
   150
                                                                                      89
   100
                       56        56
    50          37

       0
                1998   1999     2000       2001      2002       2003       2004    JAN - MAY
                                                                                     2005


Source: Lummi Indian Nation


      As shown in Chart 4, the number of victims served increased by
51 percent, from 37 to 56, during the first year of the grant (1999). 28
Additionally, the number of victims served increased by 716 percent, from
37 to 302, between the year prior to the grant (1998) and the last full year
of the grant (2004). We did not have a full year of data for 2005 to include
in our analysis. Based on the number of victims served during the first
5 months of 2005, we projected that the Lummi Indian Nation could have
provided services to as many as 214 victims in 2005 [(89 divided by
5 months) multiplied by 12 months]. We discussed the apparent decline in
victims served during 2005 with tribal grantee officials, who indicated that
the statistics were cyclical in nature and that generally, a greater number of
crimes were committed during the summer months, which were not included
in our 2005 data.




           28
           It should be noted that these statistics included the number of victims served for
all grant programs administered by the Lummi Indian Nation.


                                           – 59 –
Victim Assistance Program Achievements

      We selected a sample of case files that the Lummi Indian Nation
maintained to document services it provided to crime victims. We found
that the tribe provided a wide variety of comprehensive services to victims
that bridged the gap between the criminal justice system and victims.
Specifically, during our review of case files, we identified the following
services provided to victims:

  •   Personal Advocacy – Short-term crisis counseling to victims was
      designed to lessen the impact of victimization. Victim advocates
      provided in-person crisis counseling to victims of crime, and also
      assessed victims’ needs.

  •   Information and Referrals – Victim advocates provided victims with
      information and referrals to service agencies that furnished therapy,
      counseling, group treatment, legal aid, parenting classes, health care,
      and child services.

  •   Assistance in Filing a Crime Victim Compensation Application – Victim
      advocates provided assistance in completing the crime victim
      compensation applications.

  •   Assistance Filing Protection Orders – Victim advocates provided
      assistance to victims in completing the necessary paperwork to obtain
      protection orders.

  •   Assistance Filing for Child Custody – Victim advocates provided
      assistance, referrals, and support to victims who wanted to file for
      child custody.

  •   Financial Assistance – Victim advocates provided victims with financial
      assistance to aid them with food, electricity, gas, and water bills.
      Additionally, the victim assistance program provided repayment to
      victims for therapy sessions that they were referred to and attended.

  •   24-Hour Hotline – Victim advocates and volunteers operated a 24-hour
      hotline, which victims could call for help, and talk to a volunteer about
      their problems.

  •   Ne Alis Tokw Shelter – The victim assistance program offered a shelter
      for women and children who were victims of violence. While in the
      shelter, victims were provided everything they needed, including food,
      bedding, clothing, and general hygiene items. Additionally, the shelter


                                    – 60 –
       provided support groups and cultural treatments, including
       acupuncture, acupressure, and a sweat lodge.

   •   Transportation – Victim advocates transported victims to and from the
       shelter, because it was not close to a bus route. Advocates also
       transported victims to therapy, counseling, court dates, medical
       appointments, and from their home where the violence usually
       occurred, to a safe location.

      In addition, the Lummi Indian Nation tribal offices provided the
following service that was not included in our case file review:

   •   Young Sexual Abuse Survivor Class – One victim advocate collaborated
       with the Brigid Collins Family Support Center to run the 11-week
       Young Sexual Abuse Survivor Class for young girls. The class acted as
       a support group for the girls, and included the following topics:
       (1) sexual abuse, (2) rape, (3) avoiding acquaintance rape, (4) rape
       drugs, (5) impact of rape, (6) what to do if you are raped or sexually
       assaulted, (7) sexual harassment, and (8) child sexual abuse. In
       addition to running the course, the advocate provided transportation to
       Bellingham, WA where the class took place.

       We provided questionnaires to 12 victims, who received services from
the Lummi Indian Nation’s victim assistance program, and who indicated a
willingness to be contacted. They were asked to identify what services were
received and whether or not they were effective in meeting their needs.
Based on the two responses we received, the victims were generally satisfied
with the services provided and felt that they were effective in meeting their
needs. Victims stated that they received assistance in obtaining a divorce,
food, housing, transportation, counseling, and referrals.

       Based on our review of the services provided to victims and the
responses to the recipient questionnaires, the Lummi Indian Nation is
effectively providing needed services to crime victims.


Collaborating with Criminal Justice Agencies and Service Providers

      According to tribal grantee officials, the Lummi Indian Nation’s victim
assistance program collaborated with many different agencies, both within
and outside the tribal community. These agencies include, but were not
limited to those listed in the following chart:




                                    – 61 –
                   COLLABORATING AGENCIES IDENTIFIED BY THE GRANTEE
                                              •   State, county, and tribal law
   •   Federal Bureau of Investigation
                                                  enforcement
   •   U.S. Attorneys’ Office                 •   Tribal medical services

   •   Unified Solutions                      •   Tribal courts

   •   State VOCA program                     •   Tribal prosecutors

   •   Head Start Program                     •   Tribal housing

   •   Family Services                        •   Tribal schools

   •   Child Services                         •   Brigid Collins Family Support Center
Source: Lummi Indian Nations

       During our audit, we conducted interviews with representatives from
tribal law enforcement and the tribal prosecutor’s office. From these
interviews, we determined that both agencies believed the Lummi Indian
Nation’s victim assistance program was effective in meeting victims’ needs.
Specifically, representatives from the tribal collaborating agencies made the
following statements:

   •   The Lummi Indian Nation’s victim assistance program fills in the gaps
       where law and order do not have the resources or the time. The
       victim advocates meet the needs of the victims, by keeping them
       informed about their case, and assist the victims in completing the
       things that need to be done on their case.

   •   The Lummi Indian Nation’s victim assistance program as a whole could
       be a model for another grantee. An effective element of the program
       is providing the comprehensive services including counseling, legal,
       practical, and non-traditional services.

       Additionally, we provided questionnaires to representatives from the
FBI and the USAO. From these questionnaires, we determined that both
agencies believed the Lummi Indian Nation’s victim assistance program was
effective in meeting the needs of victims. Representatives from the FBI and
USAO made the following statements about the Lummi Indian Nation’s
victim assistance program.

   •   To date, Lummi Victims of Crime (LVOC) stands out as one of the
       premiere arbiters of services provided to Native American victims of
       crime. Compared to tribal victim services on reservations throughout
       this state, LVOC distinguishes itself based upon the knowledge and


                                         – 62 –
       expertise of the staff, the staff’s willingness to expand and augment
       this knowledge base, the degree of openness to and collaboration with
       non-tribal entities, etc. The LVOC appears to be one of the most
       effective and functional programs that I have come into contact with in
       this state thus far.

   •   We would not have had a successful outcome in the case if it had not
       been for the assistance of the victim advocate.

       Based on the responses to our interviews with representatives from
tribal law enforcement and the tribal prosecutor’s office, and questionnaires
with collaborating agencies, we found that the Lummi Indian Nation’s victim
assistance program was effective in meeting both the short- and long-term
needs of crime victims. The collaborating agencies agreed that the program
provided much-needed victim services that were not available through other
sources. We believe the victim assistance grant program was effective in
bridging the gap between the criminal justice system and service providers.


Sustaining the Victim Assistance Program

       The Lummi Indian Nation could not provide a plan to sustain its victim
assistance program when the program funding expired. Tribal grantee
officials stated that if the OVC victim assistance program funding was
terminated, they would seek funding through the tribal council and other
grant funding to continue the victim assistance program.


Conclusion

      Based on the results of our review, the victim assistance program for
the Lummi Indian Nation effectively implemented a comprehensive victim
assistance program that bridged the gap between the criminal justice system
and victims. We found that:

   •   the tribe generally achieved its tribal victim assistance grant
       objectives, which were consistent with the overall goal of the OVC
       tribal victim assistance program;

   •   the tribe accurately reported performance information in its progress
       reports;




                                    – 63 –
  •   the number of victims served increased by 51 percent during the first
      year of the grant program and by 716 percent over the life of the
      entire program; and

  •   the program was considered effective by the victims, and by tribal and
      federal collaborating agencies in meeting both short- and long-term
      victim needs.

       Although we found that the victim assistance program implemented by
the Lummi Indian Nation was effective, we noted that the statistical data in
the progress reports included all grant programs administered by the Lummi
Indian Nation’s victim assistance program. Additionally, tribal grantee
officials could not provide a plan to sustain the victim assistance program
when the OVC program funding expired.




                                   – 64 –
VI.   OVERALL SUMMARY AND CONCLUSION

      Based on our review, we found a wide range in the effectiveness
      of the four individual grantee tribal victim assistance programs.
      Specifically, we found that the Sault Ste. Marie Tribe and the
      Lummi Indian Nation effectively implemented comprehensive
      victim assistance programs that bridged the gap between the
      criminal justice system and victims. Conversely, the Oglala
      Sioux Tribe and the Mississippi Band of Choctaw Indians did not
      effectively implement comprehensive victim assistance
      programs. We believe the wide range of effectiveness among
      the individual grantee tribal victim assistance programs was, in
      part, due to the fact that the OVC did not incorporate adequate
      strategic planning into its tribal victim assistance program, which
      was necessary to implement effective performance-based
      management.

       The OIG previously conducted an audit on the Administration of
Department of Justice Grants Awarded to Native American and Alaska Native
Tribal Governments, Report No. 05-18, March 2005. The prior audit found
significant issues with the adequacy of grant monitoring, which is an
essential management tool ensuring that grant programs are implemented
and objectives are achieved. Additionally, the report noted that the granting
agencies did not ensure that tribal grantees submitted the necessary
information to assess grant implementation and the achievement of grant
program objectives. We also found there was no consistency in the
information provided in the required progress reports that were submitted.
Specifically:

  •   For the majority of the grants reviewed, one or more required financial
      and progress reports, which contain the minimum information
      necessary to determine whether grant programs were implemented
      and grant objectives were achieved (especially final reports), were not
      submitted or were not submitted in a timely manner.

  •   A review of the obligation and utilization of grant funds found that the
      tribal-specific grant programs were not always fully implemented in a
      timely manner, an indication that grant objectives were not achieved,
      and that the current programs were not fully effective in meeting the
      criminal justice needs of tribal governments.

      These findings are consistent indications that the OVC and other
granting agencies are not effectively monitoring and administering DOJ
grants awarded to tribal governments. Additionally, the DOJ has no


                                    – 65 –
assurances that the objectives of its tribal-specific grant programs are being
met or that expenditures of grant funds are in accordance with applicable
laws, regulations, guidelines, and terms and conditions of the grants.

      As a result, we initiated the current audit as a follow-up to evaluate
the effectiveness of the OVC tribal victim assistance grant program. The
objective of our audit was to obtain grant performance information directly
from tribal grantees and to evaluate whether the grants were fully
implemented and the program objectives were achieved.


Grantee Program Effectiveness

      For the current audit, we evaluated the effectiveness of the four tribal
grantees, who received victim assistance funding, for which financial audits
had been conducted as part of our previous audit. Those tribal grantees
included the:

     •   Sault Ste. Marie Tribe of Chippewa Indians, Sault Ste. Marie, Michigan
     •   Oglala Sioux Tribe, Pine Ridge, South Dakota
     •   Mississippi Band of Choctaw Indians, Philadelphia, Mississippi
     •   Lummi Indian Nation, Bellingham, Washington


       To evaluate the effectiveness of individual grantee tribal victim
assistance programs, we determined whether each tribal grantee:
(1) implemented its tribal victim assistance grant objectives, (2) accurately
reported grant activities in progress reports, (3) maintained statistical data
supporting program performance, (4) documented any program
accomplishments, (5) coordinated effectively with criminal justice agencies
and service providers, and (6) developed plans to sustain the victim
assistance program when the grant funding expired. Based on our review,
we found a wide range in the effectiveness of the four individual grantee
tribal victim assistance programs.

      Specifically, we found that the Sault Ste. Marie Tribe and the Lummi
Indian Nation effectively implemented comprehensive victim assistance
programs that bridged the gap between the criminal justice system and
victims. Conversely, the Oglala Sioux Tribe and the Mississippi Band of
Choctaw Indians did not effectively implement comprehensive victim
assistance programs, as shown in Table 14.




                                         – 66 –
TABLE 14. ANALYSIS OF EFFECTIVENESS MEASURES
                                                                MISSISSIPPI       LUMMI
                                SAULT STE.       OGLALA          BAND OF          INDIAN
                                MARIE TRIBE    SIOUX TRIBE       CHOCTAW          NATION
 • Achieved grant
                                    Yes             Yes           Partially         Yes
   objectives
 • Services available to
                                    Yes             Yes             No              Yes
   all victims of crime
 • Accurately reported
                                     No             No              No              Yes
   performance measures
 • Increased the number
                                    Yes             No              No              Yes
   of victims served 29
 • Considered effective by
                                    Yes             Yes             Yes             Yes
   victims
 • Considered effective by
   tribal collaborating             Yes             No            Partially         Yes
   agencies
 • Considered effective by
   federal collaborating            Yes             Yes            N/A 30           Yes
   agencies
 • Established a plan to
                                    Yes             No              No              No
   sustain the program
 OVERALL PROGRAM                                   NOT             NOT
                                 EFFECTIVE                                       EFFECTIVE
 ASSESSMENT                                      EFFECTIVE       EFFECTIVE


       Generally, we found that the tribes who implemented a successful
tribal victim assistance program effectively coordinated with tribal, state,
and federal criminal justice agencies and social service providers.
Additionally, these programs provided services to tribal victims of all crimes,
rather than focusing on a specific type of crime. Tribes that did not
implement a successful tribal victim assistance program: (1) did not have
consistent program leadership; (2) did not coordinate effectively with tribal,
state, and federal criminal justice agencies and social service providers; and
(3) focused on victims of specific crimes rather than providing services to all
victims of crime.



       29
          This statistic does not include an evaluation of the total number of crimes
reported during the period.
       30
          The FBI and USAO were unable to provide feedback on the tribe’s victim
assistance program because these agencies are only responsible for major crimes
committed on tribal lands, while the tribe’s program focuses on victims of non-major
domestic crimes.


                                           – 67 –
Factors Impacting Grantee Program Effectiveness

      Our audit identified several concerns that we consider impairments to
the effectiveness of the OVC tribal victim assistance program as a whole, as
well as to the victim assistance programs implemented by individual tribal
grantees. These concerns are related to the:

   •   structure and design of the OVC tribal victim assistance program in
       incorporating adequate strategic planning;

   •   use of performance information reported by tribal grantees in
       managing and improving performance of the OVC tribal victim
       assistance program; and

   •   demonstrating program results.


Inadequate Strategic Planning

      In Finding I of this report, we found that the OVC tribal victim
assistance program structure and design did not incorporate any strategic
planning, which was essential for management to adequately evaluate
program effectiveness. We also found that the OVC did not establish
long-term or annual performance goals, which were necessary to promote
program results and accountability. Additionally, the OVC did not tie
program funding decisions to program effectiveness, ensuring that
resource-allocation decisions reflected such effectiveness. As a result, we
recommended that the OVC establish long-term and annual performance
goals for its tribal victim assistance program and that resource allocation
decisions reflect program effectiveness.

      In addition, we found the OVC did not conduct any evaluations to
determine the effectiveness of its tribal victim assistance program.
However, in FY 2001 the OVC did provide approximately $25,000 in funding
to the NIJ to conduct assessments of four tribal victim assistance grant
recipients to determine whether or not the tribal grantee programs could be
evaluated. The OVC also provided the NIJ with an additional $425,200 to
evaluate the effectiveness of two 2003 TVA grantees with awards totaling
$197,689. The NIJ awarded a grant to conduct this evaluation to the
American Indian Development Associates, Inc. in September 2005. The
evaluation will take place over a 2-year period and should be completed by
December 2007. We discussed our concerns related to expending $425,200
to evaluate programs with funding totaling less than $200,000 with OVC and
NIJ officials. They stated that although the evaluations cannot be used to


                                    – 68 –
determine the effectiveness of the OVC tribal victim assistance program as a
whole, they expect that the findings will produce lessons learned for similar
tribal programs.


Collecting and Using Performance Information

       In Finding I of this report, we also found that the OVC did not provide
any guidance to tribal grantees on collecting and reporting performance
information. The OVC also did not provide tribal grantees with definitions of
terms used in the required performance measures, such as what constitutes
a victimization, service, publication, or training workshop. Additionally, the
OVC did not provide any guidance on tabulating the performance
information. As a result of these failures, there was no consistency among
tribal grantees in how performance information was reported.

       We believe consistent and comparable performance information
between tribal grantees is essential for the early identification of poor
program performance. As a result, we recommended that the OVC provide
tribal grantees with definitions of terms used for the required performance
measures and guidance on tabulating the performance information reported.

       We also found that despite the fact that tribal grantees were required
to include performance information in their progress reports, the OVC did
not use the reported information to manage its tribal victim assistance
program or to improve performance. Specifically, the OVC did not
summarize the performance information reported by tribal grantees in order
to report on its tribal victim assistance program as a whole. Performance
information also was not used to evaluate the effectiveness of the individual
grantee tribal victim assistance programs.

        We believe that the OVC needs to summarize the performance
information reported by tribal grantees in reporting on the effectiveness of
its tribal victim assistance program as a whole. We also believe that the
OVC needs to utilize performance information to evaluate the effectiveness
of the individual grantee tribal victim assistance programs and to follow up
with tribal grantees demonstrating poor program performance.


Progress Toward Achieving Program Objectives

      Finally, in Finding I of this report, we attempted to generate statistical
information from tribal grantee progress reports and use this information to
assess the effectiveness of the OVC tribal victim assistance program as a


                                     – 69 –
whole. We found that the required progress reports that were essential for
effective monitoring were only submitted for 68 percent (17 of 25) of tribal
grantees reviewed. 31 Further, the OVC did not ensure that tribal grantees
reported on the required performance measures: only 8 percent of tribal
grantees reported on all 6 performance measures for the period ending
December 31, 2003; only 24 percent for the period ending June 30, 2004;
and only 28 percent for the period ending December 31, 2004. Therefore,
the performance data contained in the progress reports submitted by tribal
grantees could not be used to generate statistical information on the
effectiveness of the OVC tribal victim assistance program as a whole. As a
result, we recommended that the OVC establish a standardized progress
report that captures required performance measure information. In
addition, we recommended that the OVC ensure that progress reports
include required performance measure data.


Conclusion

       We found that the Sault Ste. Marie Tribe and the Lummi Indian Nation
effectively implemented comprehensive victim assistance programs that
bridged the gap between the criminal justice system and victims.
Conversely, the Oglala Sioux Tribe and the Mississippi Band of Choctaw
Indians did not effectively implement comprehensive victim assistance
programs. Our audit identified several concerns that we consider
impairments to the effectiveness of the OVC tribal victim assistance program
as a whole, and victim assistance programs implemented by individual tribal
grantees. Specifically, we found that:

   •   the OVC tribal victim assistance program structure and design does
       not incorporate any strategic planning, which is essential for
       management to adequately evaluate program effectiveness;

   •   the OVC does not use performance information reported by tribal
       grantees to manage and improve performance of its tribal victim
       assistance program; and

   •   the OVC cannot demonstrate program results because required
       progress reports are not always submitted, and tribal grantees did not
       include the required performance measure information in the progress
       reports.

       31
          We reviewed the progress reports for the periods ending December 31, 2003,
June 30, 2004, and December 31, 2004, submitted by each of the 25 tribal grantees
awarded 2003 TVA grants.


                                        – 70 –
      As a result, we made seven recommendations in this report that focus
on specific steps the OVC should take to incorporate adequate strategic
planning into its tribal victim assistance program, which is necessary to
implement effective performance-based management. Specifically, we
recommend that the OVC:

1.   Establish long-term and annual performance goals for its tribal victim
     assistance program.

2.   Ensure that resource-allocation decisions reflect program
     effectiveness.

3.   Provide tribal grantees with definitions of terms used for the required
     performance measures and guidance on tabulating the performance
     information reported.

4.   Establish a standardized progress report that captures required
     performance measure information.

5.   Ensure that progress reports include required performance measure
     data.

6.   Summarize the performance information reported by tribal grantees to
     report on the effectiveness of its tribal victim assistance program as a
     whole.

7.   Utilize the performance information reported by tribal grantees to
     evaluate the effectiveness of individual grantee tribal victim assistance
     programs, and to follow up with tribal grantees demonstrating poor
     program performance.




                                   – 71 –
                 STATEMENT ON INTERNAL CONTROLS

      The OVC tribal victim assistance program was designed to establish,
expand, and improve direct-service victim assistance programs in remote,
rural Native American communities. In planning and performing the audit,
we considered the OVC’s internal controls for the purpose of determining our
auditing procedures. The evaluation was not made for the purpose of
providing assurance on OVC’s internal control structure as a whole.
However, we noted certain matters that we consider reportable conditions
under generally accepted government auditing standards. 32 Specifically,

   •   the OVC did not ensure that required progress reports were submitted
       and that tribal grantees included the required performance measure
       information in progress reports. (See Finding I.)

      PricewaterhouseCoopers LLP (PwC) performed the FY 2004 financial
statement audit of the Office of Justice Programs (OJP), in which the OVC
resides. During this audit, PwC evaluated the general controls over OJP’s
financial systems, mixed feeder systems, and general-support systems.
PwC’s review determined if OJP’s internal controls were sufficient to provide
reasonable assurance that processed transactions could be relied upon by
the auditors in performing the financial statement audit testing.

       As a result of the work performed, PwC identified material weaknesses
in internal controls over computerized information systems at OJP.
Weaknesses identified included inadequate controls over: (1) changes to
applications and program changes in these systems; (2) the integrity of data
passed between the feeder and core financial systems; and (3) access to
systems and data. PwC concluded that OJP did not have effective internal
controls over the computerized information systems it uses to process grant
transactions, and as a result, it could not rely upon the internal controls over
these systems. PwC also identified material weaknesses in OJP’s overall
control environment, grant accounting and monitoring, documentation of
adjusting journal entries, and the financial reporting process. Accordingly,
PwC was unable to complete the financial statement audit and issued a
disclaimer of opinion on OJP’s financial statements.




       32
           Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the management control structure that,
in our judgment, could adversely affect the ability of the OVC to administer its victim
assistance grants awarded to tribal governments.


                                           – 72 –
      Because we are not expressing an opinion on the overall internal
control structure of the OVC, this statement is intended solely for the
information and use by the OVC in managing its tribal victim assistance
program.




                                   – 73 –
               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS

      As required by the Government Auditing Standards, we tested the
OVC’s records and documents pertaining to its tribal victim assistance
program to obtain reasonable assurance that the OVC complied with laws
and regulations that, if not complied with, could have a material effect on
the OVC’s administration of the tribal victim assistance program.
Compliance with laws and regulations related to tribal victim assistance
grant program is the responsibility of OVC management. An audit includes
examining, on a test basis, evidence about compliance with laws and
regulations. At the time of our audit, the pertinent legislation and the
applicable regulations were:

  •   Victims of Crime Act of 1984,

  •   Government Performance and Results Act of 1993 (GPRA),

  •   OJP’s Grant Manager’s Manual, and

  •   OJP’s Financial Guide.

                               ♦        ♦      ♦
      Except for instances of non-compliance identified in the Findings and
Recommendations section of this report, the OVC complied with the laws
cited above. With respect to those activities not tested, nothing came to our
attention that caused us to believe that the OVC was not in compliance with
the laws cited above.




                                      – 74 –
                                                                 APPENDIX I

        CRIMINAL JURISDICTION IN INDIAN COUNTRY


      There are numerous jurisdictional complexities and limitations in
Indian Country that contribute to the overwhelming difficulties in any effort
to improve the relationship between the tribal governments and the federal
government. For example, crimes committed in Indian Country could fall
under the jurisdiction of the federal, state, or tribal governments, depending
on the identity of the victim and suspect, (i.e., Indian or non-Indian), the
seriousness of the offense, and the state in which the offense was
committed. There are three federal statutes that affect criminal jurisdiction
in Indian Country, including:

   •   United States Code: 18 U.S.C. § 1152 (2003);

   •   United States Code: 18 U.S.C. § 1153 (2003); and

   •   United States Code: 18 U.S.C. § 1162 (2003).

      The first federal code provision relating to crimes committed in Indian
Country is 18 U.S.C. § 1152. Under this federal code provision, all crimes
committed by non-Indians against Indians in Indian Country are subject to
exclusive federal jurisdiction regardless of the seriousness of the offense.

     Jurisdiction in Indian Country is further complicated by the definition of
what constitutes Indian Country. Indian Country, as defined by
18 U.S.C. § 1151, includes:

   •   all land within the limits of any Indian reservation under the
       jurisdiction of the federal government, notwithstanding the issuance of
       any patent, and, including rights-of-way running through the
       reservation;

   •   all dependent Indian communities within the borders of the United
       States whether within the original or subsequently acquired territory
       thereof, and whether within or without the limits of a state; and

   •   all Indian allotments, the Indian titles to which have not been
       extinguished, including rights-of-way running through the same.

    The second federal code provision regarding jurisdiction over crimes
committed in Indian Country is 18 U.S.C. § 1153. Pursuant to this federal


                                    – 75 –
code provision, crimes committed in Indian Country, with the exception of
crimes committed in the states granted jurisdiction under the provision, are
subject to federal jurisdiction when the offense is committed by, or against,
a Native American. The crimes subject to federal jurisdiction under
18 U.S.C. § 1153, include: murder, manslaughter, kidnapping, maiming,
incest, assault with intent to commit murder, assault with a dangerous
weapon, assault resulting in serious bodily injury, an assault against an
individual who has not attained the age of 16 years, arson, burglary, and
robbery.

       Additionally, pursuant to 18 U.S.C. § 1153, all non-major crimes
(those not listed in 18 U.S.C. § 1153) committed by Indians against other
Indians within Indian Country, are subject to the jurisdiction of tribal courts.
Further, all crimes committed by non-Indians against other non-Indians, in
Indian Country, are subject to prosecution under state law. Table 15
illustrates jurisdiction over criminal offenses committed in states not covered
by 18 U.S.C. § 1162.

TABLE 15.      CRIMINAL JURISDICTION OVER CRIMES COMMITTED IN
               INDIAN COUNTRY
 SUSPECT IDENTITY       VICTIM IDENTITY         TYPE OF OFFENSE        JURISDICTION
 Indian                 Indian or Non-Indian    Major Crimes           Federal
 Indian                 Indian or Non-Indian    Non-major Crimes       Tribal
 Non-Indian             Indian                  Any Offense            Federal
 Non-Indian             Non-Indian              Any Offense            State
Source: 18 U.S.C. § 1152 and 18 U.S.C. § 1153

       Finally, the third federal code provision concerning Indian Country
jurisdiction is 18 U.S.C. § 1162. Under this federal code provision, certain
states were granted jurisdiction over crimes committed in all or part of
Indian Country within the state, except those specifically designed as
matters of jurisdiction. Table 16 illustrates those states granted jurisdiction
pursuant to 18 U.S.C. § 1162.

TABLE 16. STATES GRANTED JURISDICTION OVER CRIMES
          COMMITTED IN INDIAN COUNTRY UNDER 18 U.S.C.
          § 1162
 STATE        INDIAN COUNTRY AFFECTED
 Alaska       All Indian Country within the state, except that on Annette Islands;
              the Metlakatla Indian community may exercise jurisdiction over
              offenses committed by Indians in the same manner in which such
              jurisdiction may be exercised by Indian tribes in Indian country
              over which state jurisdiction has not been extended.
 California   All Indian Country within the state.



                                           – 76 –
 STATE       INDIAN COUNTRY AFFECTED
 Minnesota   All Indian country within the state, except the Red Lake
             Reservation.
 Nebraska    All Indian country within the state.
 Oregon      All Indian country within the state, except the Warm Springs
             Reservation.
 Wisconsin   All Indian country within the state.
Source: 18 U.S.C. § 1162




                                          – 77 –
                                                               APPENDIX II

           OBJECTIVES, SCOPE, AND METHODOLOGY


      We audited the OVC tribal victim assistance program, which was
designed to establish, expand, and improve direct-service victim assistance
programs in remote, rural Native American communities. In order to
evaluate program effectiveness, the objective of our audit was to obtain
grant performance information directly from the grantees and evaluate
whether the grants were fully implemented and whether program objectives
were achieved.

      We conducted our audit in accordance with the Government Auditing
Standards, and included such tests as were necessary to accomplish the
audit objective. The audit generally covered, but was not limited to, tribal
victim assistance grants awarded between FYs 1999 through 2004. Audit
work was conducted at OVC Headquarters, and four selected tribal grantees.

      We believe that grant program effectiveness starts with the overall
structure and design of the program. Therefore, as part of our audit, we
reviewed the OVC to determine the adequacy of the tribal victim assistance
program purpose and design.

      To determine whether the OVC tribal victim assistance program had a
well-defined purpose designed to support a specific problem, we obtained
the program’s authorizing legislation and other documentation and identified
the overall goals of the OVC tribal victim assistance program. We also
obtained statistics and other documentation supporting the problems that
were to be addressed by the program.

      To determine whether the OVC tribal victim assistance program was
designed to fill a unique role or whether they unnecessarily duplicated,
overlapped, or competed with other federal or non-federal programs, we
obtained the total funding and a description of the efforts supported by any
program that addressed a similar problem in a similar way.

      In order for grant programs to be effective the granting agency must
incorporate adequate oversight and evaluation. For this audit, we also
reviewed the OVC to determine if its tribal victim assistance program
incorporated adequate strategic planning to evaluate program effectiveness.

      To determine whether the OVC tribal victim assistance program
incorporated adequate strategic planning to evaluate program effectiveness,


                                   – 78 –
we obtained the existing agency GPRA performance plan/performance
budget and other program documents supporting the measures established
for the OVC tribal victim assistance program. Specifically, we used these
documents to determine if the OVC implemented: (1) long-term
performance measures to guide program management and budgeting, and
promote results and accountability; (2) a limited number of annual
performance measures that were identified to directly support the long-term
goals obtained; and (3) challenging but realistic quantified targets for the
annual measures.

      Additionally, we interviewed OVC officials to determine whether:
(1) the performance data reported by grant recipients was used to evaluate
program effectiveness; (2) the OVC conducted evaluations to determine
program effectiveness; and (3) the performance-planning and
budget-planning processes were integrated so that resource-allocation
decisions reflected desired performance, and the effects of funding and other
policy changes on results were clear.

       To determine if performance information was used to manage the OVC
tribal victim assistance program and improve performance, we determined
whether: (1) the data reported by grant recipients was used to inform
program management, make resource decisions, and evaluate program
performance; (2) the OVC held its program managers and tribal grantees
accountable for achieving program results; (3) OVC funds were administered
efficiently and obligated in accordance with planned schedules; (4) the
program had adequate oversight practices that provided sufficient
knowledge of grantee activities; and (5) the program collected grantee
performance data on an annual basis.


Evaluating the Effectiveness of Individual Grantee Programs

         We attempted to evaluate the effectiveness of individual grantee
tribal victim assistance programs by selecting the four tribal grantees who
received victim assistance funding, for which financial audits had been
conducted previously as part of our audit on the Administration of
Department of Justice Grants Awarded to Native American and Alaska Native
Tribal Governments, Report No. 05-18, March 2005. Those grantees are
listed in the chart on the following page:




                                   – 79 –
        •   Sault Ste. Marie Tribe of Chippewa Indians, Sault Ste. Marie, Michigan
        •   Oglala Sioux Tribe, Pine Ridge, South Dakota
        •   Mississippi Band of Choctaw Indians, Philadelphia, Mississippi
        •   Lummi Indian Nation, Bellingham, Washington


       In order to evaluate the effectiveness of the victim assistance
programs implemented by the four individual tribal grantees, we determined
whether they: (1) implemented tribal victim assistance grant objectives;
(2) reported grant activities accurately in progress reports; (3) maintained
statistical data supporting program performance; (4) documented any
program accomplishments; (5) coordinated effectively with criminal justice
agencies and service providers; and (6) developed plans to sustain the
victim assistance program upon the expiration of grant funding. The
following sections summarize our findings.


Implementing Grant Program Objectives

       We reviewed the grant application and award documentation to
identify the objectives for each of the victim assistance grants awarded to
the four individual tribal grantees. We then reviewed each grant objective to
determine if it was consistent with the overall goals of the OVC tribal victim
assistance program. Additionally, we interviewed grantee officials and
reviewed supporting documentation to determine:

   •   how the grantee measured the progress towards achieving objectives
       of its victim assistance program;

   •   if the grantee established timelines in its application for accomplishing
       the objectives of its victim assistance program;

   •   if the objectives of its victim assistance program were implemented;

   •   the current status toward achieving grant objectives, in relation to the
       proposed timelines/activities in the original application;

   •   whether the grantee’s victim assistance program was on track to
       accomplish the objectives listed in the grant award documentation;
       and

   •   whether all grant objectives were achieved for any grant programs
       that had ended.




                                          – 80 –
Accurately Reporting Grant Activities

      We determined if grantees submitted all required progress reports
under the OVC tribal victim assistance program. 33 We then assessed the
adequacy of the submitted reports by determining whether they contained
the required program performance data listed below:

   •   number of victims served and type of victimization,

   •   number of staff supported by victim assistance funds,

   •   number of volunteer hours,

   •   number of publications produced,

   •   number of training workshops for law enforcement,

   •   type of services provided, and

   •   progress on goals and objectives identified by the program. 34

      We also verified progress reports to any source documentation
maintained by grantees to determine if the reports accurately reflected
actual grant activity.


Maintaining Statistical Data Supporting Program Performance

       We determined whether grantees maintained statistics on the same
criteria as required under the previous section: Accurately Reporting Grant
Activities in Progress Reports. We then calculated the percentage of victims
who received assistance through the program based on the information
obtained. Finally, we assessed whether the grantee could demonstrate an
increase in services and activities as a result of the OVC tribal victim
assistance grant funding received.

       33
            The OVC requires grantees who receive grants under victim assistance programs
to submit a progress report every 6 months, for periods ending June 30 and December 31,
for the life of the awards. Progress reports must be submitted within 30 days (120 days for
a final progress report) after the end of the reporting periods.
       34
          The OVC requires that progress reports contain information related to: (1) the
goals and objectives of the grant awarded; (2) activities conducted during the reporting
period; (3) any timeframes for accomplishing the goals and objectives; (4) the status of the
goals and objectives; and (5) how the grantee plans to evaluate performance indicators and
evaluations.


                                          – 81 –
Documenting Program Accomplishments

       We determined if files were maintained for services provided to
individual victims, and selected a sample of files to review in order to
determine the types of services provided, and to identify any information
related to the impact of the program on individual victims. Additionally, we
provided questionnaires to individual victims to determine if the services
received were effective in meeting their needs. Finally, we interviewed tribal
and federal collaborating agencies to determine whether the grant program
was effective in meeting victims’ needs.


Coordinating with Criminal Justice Agencies and Service Providers

       Collaboration is an essential component of the OVC tribal victim
assistance program. Therefore, grantees were required to implement
strategies that included coordinating with appropriate local agencies involved
in assisting victims. We interviewed tribal and federal collaborating agencies
to determine if any efforts to promote partnerships within and outside of the
tribal community were successful, and in order to effectively provide services
to crime victims.


Developing Plans to Sustain Programs After Funds Expire

      Finally, a significant component of program effectiveness is whether or
not the grant program continues after grant funding expires. Generally,
grant programs are intended to provide initial funding. However, grantees
are expected to sustain the program with other funding sources. We
interviewed grant program officials to determine if grantees developed plans
to sustain the tribal victim assistance program once the grant expired.




                                   – 82 –
                                                                            APPENDIX III

             SUMMARY OF FINANCIAL AUDITS PREVIOUSLY
               CONDUCTED BY THE OIG OF OJP GRANTS
                AWARDED TO TRIBAL GOVERNMENTS


      The OIG previously conducted financial audits of OJP grants, including
supplements, awarded to the following tribal grantees: 35

              •   Sault Ste. Marie Tribe of Chippewa Indians
                  Report No. GR-50-05-006, February 2005
              •   Oglala Sioux Tribe, Report No. GR-60-05-004, February 2005
              •   Mississippi Band of Choctaw Indians, Report No. GR-40-05-003,
                  January 2005
              •   Lummi Indian Nation, Report No. GR-90-05-007, February 2005
       Source: The OIG

      During these audits, we tested each tribal grantee’s accounting records
to determine if reimbursements claimed for costs under the grants were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grants. The results of
these audits are summarized below.


Sault Ste. Marie Tribe of Chippewa Indians

      For the Sault Ste. Marie Tribe, we determined that controls over
expenditures were generally adequate to ensure that expenses were
properly accounted for and that transactions were adequately supported.
However, $50,890 of costs charged to the grant were unsupported or
unallowable. Specific deficiencies included:

   •    Failure to monitor grant expenditures by budget category or obtain
        approval to transfer funds between categories, resulting in unapproved
        fund transfers of $40,418, which covered deviations in excess of
        10 percent of the approved budgets.




        35
          In addition to the victim assistance grants discussed in this report, the financial
audits generally included other tribal-specific grants awarded by OJP.


                                            – 83 –
  •   Failure to maintain adequate records to support $8,399 of the
      grantee’s required matching contribution and $2,073 in grant
      expenditures.

  •   Poor accounting review and reconciliation procedures resulting in the
      grantee drawing down funds in excess of expenditures. Part of the
      excess drawdown was caused by the grantee requesting
      reimbursement twice for the same expenditures.

  •   Failure to file required reports in a timely manner. At least one-third
      of the Financial Status Reports (FSRs) were filed late and one-half of
      the progress reports were filed late or not at all.


Oglala Sioux Tribe

      The financial audit revealed that the Oglala Sioux Tribe claimed and
was reimbursed for unallowable and unsupported costs. We found that:
(1) grant drawdowns exceeded immediate needs; (2) the tribe did not meet
its matching requirements; and (3) required reports were not always
accurate or submitted in a timely manner. Based on the deficiencies listed
below, we identified dollar-related findings totaling $1,046,176, or
7.4 percent, of the $14,143,064 total grant funds awarded. Specifically, we
found:

  •   The Oglala Sioux Tribe was reimbursed $803,326 for costs charged to
      the grants that were either not supported by adequate documentation
      or were not allowable. We also identified $234,441 in funds put to
      better use that were related to deobligated grant funds and fees paid
      to contractors.

  •   The Oglala Sioux Tribe received drawdowns of grant funds in excess of
      its immediate disbursement requirements, resulting in $2,970 in
      imputed interest charges.

  •   The Oglala Sioux Tribe did not provide supporting documentation for
      its matching requirements, resulting in a questioned excess federal
      share of $5,439.

  •   FSRs and progress reports were not always submitted or were not
      submitted in a timely manner for all grants.

  •   FSRs were not always accurate for all grants.



                                    – 84 –
Mississippi Band of Choctaw Indians

      The financial audit of grants awarded to the Mississippi Band of
Choctaw Indians revealed deficiencies in the areas of reporting, budget
management and control, matching costs, and expenditures. Further, some
property purchased with federal funds was not managed according to
financial guidelines. The tribe also made several advance payments that are
generally prohibited by federal regulations. As a result of these deficiencies,
we questioned $191,872, or 1.1 percent, of the total grant funds awarded.
Specifically, we found:

   •   FSRs and progress reports were not always submitted or were not
       submitted in a timely manner for all grants.

   •   The tribe did not provide the required matching share or costs from
       the Victim Assistance in Indian Country grant, Grant
       No. 1999VRGX0011.

   •   The tribe received $191,872 in grant funds that was either not
       supported by adequate documentation, not allowable, not approved by
       OJP, or exceeded the amounts approved by OJP.

   •   Some equipment purchased with grant funds did not have an
       inventory control tag and the property records did not indicate the
       percentage of federal participation in the cost of the property.

   •   The tribe made advance payments that are prohibited by regulations.


Lummi Indian Nation

      During the financial audit, we found that the accounting and internal
control systems were not adequate to ensure that funds were used optimally
and that expenditures of funds were in conformance with the grants.
   • FSRs, progress reports, and performance reports were either not
      submitted or were not submitted in a timely manner.

   •   FSRs were not initially accurate and were submitted multiple times
       until they accurately reflected the accounting records.

   We also identified a total of $238,021 in dollar-related findings for the
three grants to the Lummi Indian Nation. Specifically:




                                    – 85 –
Grant No. 1999VRGX0012:

•   The tribe transferred funds in excess of 10 percent between budget
    categories (questioned costs of $2,423) and added budget categories
    (questioned costs of $2,728) without prior approval.

•   The tribe claimed $6,600 in unallowable rent, $7,500 in unallowable
    legal fees, $200 in unallowable advertising costs, and $844 in
    unallowable personnel costs.

Grant No. 2001-VI-GX-0002:

•   The tribe added two budget categories without prior approval
    (questioned costs of $2,593).

•   The tribe failed to meet the local match (questioned costs of $22,162)
    and provided a match that did not meet grant requirements
    (questioned costs of $31,510).

•   The tribe claimed $1,438 in unallowable travel expenses, $1,457 in
    unallowable vehicle repair and maintenance, $299 in unallowable
    cleaning expenses, $61,208 in unallowable personnel costs, and
    $47,103 in unallowable indirect costs.

Grant No. 2001-VR-GX-0001:

•   The tribe transferred funds in excess of 10 percent between budget
    categories without prior approval (questioned costs of $7,217).

•   The tribe failed to meet the local match (questioned costs of $11,309).

•   The tribe claimed $1,134 in unallowable vehicle insurance and $5,775
    in unallowable rent.

•   The tribe claimed $11,009 in unsupported transfers into the grant.

•   The tribe claimed $13,512 in unallowable expenses after the grant end
    date of September 30, 2003.




                                 – 86 –
         APPENDIX IV




– 87 –
– 88 –
– 89 –
– 90 –
                                                               APPENDIX V

             ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT


      The OIG has identified several issues in the OVC response to our draft
report (see Appendix IV) that we believe should be addressed. As a result,
we are providing the following comments on the OVC response to the draft
report.

    In Appendix IV, page 87, the OVC provided the following general
comment:

      The “number of victims served” appears to have been given
      considerable weight in the ultimate determination of a program’s
      effectiveness (i.e., neither tribe that received a “no” on this
      measurement was considered effective).

       The OIG disagrees with the OVC assertion that the number of victims
served was given considerable weight in the ultimate determination of
program effectiveness. The number of victims served was only one of eight
factors considered in determining the effectiveness of the individual grant
programs. In fact, the OVC response does not address other measures the
OIG considered in making this assessment. For example, although both
tribal victim assistance programs established by the Oglala Sioux Tribe and
the Mississippi Band of Choctaw Indians could not demonstrate an increase
in the number of victims served, as stated in Findings III and IV of this
report, the OIG also found that these tribes:

  •   were not considered effective or were considered only partially
      effective by tribal collaborating agencies;

  •   had not established a plan to sustain its victim assistance program
      when the victim assistance grant funding expired; and

  •   did not accurately report performance information in its progress
      reports.

      Additionally, the Oglala Sioux Tribe’s program was never fully
implemented due to frequent changes in program management. Further,
the victim assistance program implemented by the Mississippi Band of
Choctaw Indians only partially achieved the grant objectives outlined for its
victim assistance grant and focused solely on victims on non-major domestic


                                   – 91 –
crimes. We considered the number of victims served along with other
measures to assess program effectiveness.

    Also, in Appendix IV, page 87, the OVC provided the following general
comment:

       Data, such as “number of victims served” gathered for internal
       reporting purposes is not necessarily appropriate for use as a
       performance measure. Although this seems to be an easy and
       appropriate measure for a program aimed at assisting crime
       victims, the outside observer is tempted to use an increase in
       the number of victims served as a measure of effectiveness . . .
       The number of victims served depends on many factors outside
       the control of the program in question. In fact, to the extent the
       law enforcement goal of reducing crime is achieved it seems
       problematic to use an increase in the number of victims served
       as a performance measure.

       The OIG recognizes the challenges faced by the OVC in developing
performance measures that can be used to determine the effectiveness of its
tribal victim assistance program. However, the OIG disagrees with the OVC
assertion that the number of victims is not appropriate for use as a
performance measure. As stated on page 6 of this report, the OVC
established the performance measures for its tribal victim assistance
program, and one of the original measures established by the OVC was the
number of victims served. 36 The OIG also recognizes that performance
measures can be influenced by factors outside the control of the program.
As stated previously, the OIG did not consider the number of victims served
to be the only factor in determining whether a program was effective.
However, in our judgment, the number of victims served is an indicator of
program effectiveness that should be utilized by the OVC. In addition, we
believe the OVC should follow up with tribal grantees demonstrating a
reduction in the number of victims served to determine whether it is related
to poor program performance or some factor outside the control of the
grantee program.

     Finally, in Appendix IV, page 87, the OVC provided the following
general comment:



       36
          In the 2005 TVA solicitation, the performance measures were changed to:
(1) percent of increase in the number of victim services provided, (2) percent of increase in
the number of victim services training workshops provided, and (3) percent of increase in
the number of victim compensation claims submitted.


                                           – 92 –
     . . . the Report notes that OVC transferred approximately
     $450,000 to the National Institute of Justice (NIJ) for an
     assessment of whether TVA grantee programs could be
     evaluated, the Report appears to question the significance of
     evaluating two grants valued under $200,000. TVA grantees
     operate in a complex environment, therefore, it is not surprising
     that NIJ limited the cost of the study to two tribes with an
     expectation that the lessons learned would be useful for other
     programs.

      As stated on page 15 of this report, the OIG expressed concern over
expending $425,200 to evaluate grant programs with funding totaling less
than $200,000 because it may not be the most effective use of limited victim
assistance resources. Our concern was not that NIJ limited the cost of the
study to two tribes. Rather our concern was that it may not be cost effective
to spend more than twice the amount of funding awarded to evaluate a
limited number of grantees, especially since NIJ officials stated that the
evaluations cannot be used to determine the effectiveness of the OVC tribal
victim assistance program as a whole.

      In Appendix IV, pages 88 through 90, the OVC provided responses to
the OIG recommendations, which we analyze in turn:

1.   Establish long-term and annual performance goals for its tribal
     victim assistance program.

     Unresolved. This recommendation can be resolved when the OVC
     provides a corrective action plan that addresses the recommendation
     to establish long-term and annual performance goals for its tribal
     victim assistance program. In Appendix IV, page 88, the OVC
     provided the following response to recommendation 1.

           In compliance with the Government Performance and
           Results Act, OVC requires TVA grantees collect and
           report data on the results of their individual
           programs. OVC will continue to work with grantees
           to establish goals that are specific to their
           community’s needs and the long-term sustainability
           of victim services.

            The OVC response to the recommendation states that the OVC
     will continue to work with grantees to establish goals that are specific
     to the community’s needs and the long-term sustainability of victim
     services; however, the intent of the recommendation was to ensure


                                   – 93 –
     that the OVC establish long-term and annual performance goals for the
     program as a whole, not for individual grantees. As a result, the
     OVC’s response does not adequately address the recommendation.

           As stated on pages 13 and 14 of our report, we evaluated the
     OVC tribal victim assistance program structure and design to
     determine whether the programs incorporate adequate strategic
     planning, which is essential in evaluating program effectiveness. We
     concluded that the OVC tribal victim assistance program structure and
     design does not incorporate any strategic planning. Specifically,

       •   Programs should have specific long-term performance goals that
           focus on outcomes and meaningfully reflect the purpose of the
           programs. We found that no long-term performance goals were
           established for the OVC tribal victim assistance program.

       •   Programs should have annual performance goals that
           demonstrate progress toward achieving long-term goals. Annual
           performance goals enable program management to detect
           deficiencies in program performance and develop corrective
           actions in a timely manner. We found that no annual
           performance goals were established for the OVC tribal victim
           assistance program.

           Therefore, based on the findings detailed above, the OVC
     response does not adequately address the establishment of long-term
     and annual performance goals for the tribal victim assistance program
     as a whole.

2.   Ensure that resource-allocation decisions reflect program
     effectiveness.

     Unresolved. This recommendation can be resolved when the OVC
     provides a corrective action plan that addresses the recommendation
     to ensure that resource-allocation decisions reflect program
     effectiveness. In Appendix IV, page 88, the OVC provided the
     following response to recommendation 2.

           The TVA grants are made based on a three-year
           proposal. Although the initial award is based on
           need, the accomplishments of TVA grantees toward
           long-term goals are considered when making
           resource-allocation decisions . . .



                                 – 94 –
            The OVC response to the recommendation states that although
     the initial award is based on need, the accomplishments of TVA
     grantees toward long-term goals are considered when making
     resource-allocation decisions. However, the intent of the
     recommendation was to address the fact that the OVC was not
     required to provide performance information with its budget requests
     for the TVA program; as a result, program funding decisions were not
     tied to program effectiveness. Therefore, the OVC’s response does not
     adequately address the recommendation.

            As stated on page 14 of our report, we evaluated the OVC tribal
     victim assistance program structure and design to determine whether
     the programs incorporate adequate strategic planning, which is
     essential in evaluating program effectiveness. We found that the OVC
     tribal victim assistance program structure and design does not
     incorporate any strategic planning. Specifically,

        •   Budget requests should be tied to the accomplishment of annual
            and long-term performance goals. It is also essential that
            program performance and budget planning processes are
            integrated so that resource-allocation decisions reflect program
            effectiveness. We found that the OVC was not required by OJP
            to provide performance information with budget requests for its
            tribal victim assistance program. Additionally, since annual and
            long-term performance goals were not established, funding could
            not be tied to program effectiveness.

           Therefore, based on the findings detailed above, the OVC
     response does not adequately address the recommendation to ensure
     resource-allocation decisions for the TVA program as a whole are
     based on program effectiveness, not funding for individual grantees.

3.   Provide tribal grantees with definitions of terms used for the
     required performance measures and guidance on tabulating the
     performance information reported.

     Resolved. This recommendation can be closed when we receive
     documentation supporting that the OVC has provided grantees with
     definitions of terms used for the required performance measures and
     guidance on tabulating the performance information reported. To
     adequately address this recommendation the OVC needs to develop
     written policies and procedures to provide grantees with definitions of
     terms used for the required performance measures and guidance on
     tabulating the performance information reported.


                                   – 95 –
4.   Establish a standardized progress report that captures required
     performance measure information.

     Resolved. This recommendation can be closed when we receive
     documentation supporting that the OVC has developed and
     implemented procedures to ensure that consistent and accurate
     performance measure information is included in the standard progress
     report.

5.   Ensure that progress reports include required performance
     measure data.

     Resolved. This recommendation can be closed when we receive
     documentation supporting that the OVC coordinated with the TVA
     training and technical assistance provider to increase efforts to ensure
     that progress reports include required performance measure data. To
     adequately address this recommendation the OVC needs to develop
     written policies and procedures to follow up with grantees who failed
     to include all required performance measure data in their progress
     reports.

6.   Summarize the performance information reported by tribal
     grantees to report on the effectiveness of its tribal victim
     assistance program as a whole.

     Resolved. This recommendation can be closed when we receive
     documentation supporting that the OVC has developed and
     implemented a formalized annual reporting process for analyzing the
     performance information reported by tribal grantees in order to report
     on the effectiveness of its tribal victim assistance program.

7.   Utilize the performance information reported by tribal grantees
     to evaluate the effectiveness of individual grantee tribal victim
     assistance programs, and to follow up with tribal grantees
     demonstrating poor program performance.

     Resolved. This recommendation can be closed when we receive
     documentation supporting that the OVC developed and implemented
     procedures to improve the programmatic monitoring process to ensure
     that performance information reported by tribal grantees is utilized to
     evaluate the effectiveness of individual grantee tribal victim assistance
     programs, and to follow up with tribal grantees demonstrating poor
     performance.


                                   – 96 –
